<html>
<title> - RESHAPING THE UNITED STATES MILITARY</title>
<body><pre>[Senate Hearing 115-853]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 115-853

                  RESHAPING THE UNITED STATES MILITARY

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 16, 2017

                               __________

         Printed for the use of the Committee on Armed Services
         
         
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]         


                 Available via http://www.govinfo.gov/
                 
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
41-967 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------
               
                 


                      COMMITTEE ON ARMED SERVICES
                      
                    JOHN McCAIN, Arizona, Chairman 
                    
JAMES M. INHOFE, Oklahoma, Chairman	JACK REED, Rhode Island
ROGER F. WICKER, Mississippi		BILL NELSON, Florida
DEB FISCHER, Nebraska			CLAIRE McCASKILL, Missouri
TOM COTTON, Arkansas			JEANNE SHAHEEN, New Hampshire
MIKE ROUNDS, South Dakota		KIRSTEN E. GILLIBRAND, New York
JONI ERNST, Iowa			RICHARD BLUMENTHAL, Connecticut
THOM TILLIS, North Carolina		JOE DONNELLY, Indiana
DAN SULLIVAN, Alaska			MAZIE K. HIRONO, Hawaii
DAVID PERDUE, Georgia			TIM KAINE, Virginia
TED CRUZ, Texas				ANGUS S. KING, JR., Maine
LINDSEY GRAHAM, South Carolina		MARTIN HEINRICH, New Mexico
BEN SASSE, Nebraska			ELIZABETH WARREN, Massachusetts
LUTHER STRANGE, Alabama              	GARY C. PETERS, Michigan
                                                          
             
                 Christian D. Brose, Staff Director
                 Elizabeth L. King, Minority Staff Director                   
                    
  
                                  (ii)

  


                         C O N T E N T S

_________________________________________________________________

                           FEBRUARY 16, 2017

                                                                   Page

Reshaping the United States Military.............................     1

Ochmanek, David A., Senior Defense Research Analyst, Rand             4
  Corporation.
Thomas, James P., Principal, The Telemus Group...................    11
Thomas M. Donnelly, Resident Fellow and Co-Director of the           17
  Marilyn Ware Center for Security Studies, American Enterprise 
  Institute for Public Policy Research.
Clark, Bryan, Senior Fellow, Center for Strategic and Budgetary      23
  Assessments.

                                 (iii)

 
                  RESHAPING THE UNITED STATES MILITARY

                              ----------                              


                      THURSDAY, FEBRUARY 16, 2017

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:33 a.m. in Room 
SD-G50, Dirksen Senate Office Building, Senator John McCain 
(chairman of the committee) presiding.
    Committee Members present: Senators McCain, Inhofe, Wicker, 
Fischer, Cotton, Rounds, Ernst, Tillis, Sullivan, Perdue, 
Sasse, Strange, Reed, Nelson, McCaskill, Shaheen, Gillibrand, 
Blumenthal, Donnelly, Hirono, Kaine, King, Heinrich, Warren, 
and Peters.

       OPENING STATEMENT OF SENATOR JOHN McCAIN, CHAIRMAN

    Chairman McCain. Well, good morning.
    The Senate Armed Services Committee meets this morning to 
receive testimony on reshaping the U.S. military and make 
America great again.
    I would like to thank our witnesses for appearing today: 
David Ochmanek, Senior Defense Research Analyst at the RAND 
Corporation; James Thomas, Principal at the Telemus Group; 
Thomas Donnelly, Resident Fellow and Co-Director of the Marilyn 
Ware Center for Security Studies at the American Enterprise 
Institute; and Bryan Clark, Senior Fellow at the Center for 
Strategic and Budgetary Assessments.
    For the last 25 years, Americans have taken our Nation's 
military superiority for granted. We watched as the Cold War 
ended with the collapse of our only superpower rival and the 
so-called ``end of history.'' We quickly grew accustomed to 
military dominance. After all, no U.S. Navy ship has been sunk 
in an active conflict since 1952. No member of American ground 
forces has been killed by an enemy airstrike since 1953. No 
American fighter aircraft has been shot down in an air-to-air 
engagement since 1991. Every one of our Nation's recent 
military conflicts resulted in a lopsided conventional military 
victory from the Gulf War to Bosnia and Kosovo to the early 
phases of the wars in Afghanistan and Iraq.
    This confidence in our military is reflected in the 
rhetoric of many or our Nation's civilian and military leaders 
who reassure us that ours is the most capable fighting force on 
the face of the earth, or that our defense budget is so much 
larger than our competitors. These statements are undoubtedly 
true, and to be very, very clear, any adversary that chooses 
the path of aggression against the United States or its allies 
would, indeed, pay a terrible price.
    But ultimately such statements shed little light on the 
most important question: whether our military can achieve the 
mission assigned to it to deter and, if necessary, defeat 
aggression and at what cost. The testimony of our military 
leaders and the work of some of our foremost defense experts 
leads me to believe there is real reason for concern.
    For the last 20 years, our adversaries have gone to school 
on the American way of war, and with focused determination, 
they have invested in, developed, and/or fielded the 
capabilities to counter it: long-range, accurate ballistic and 
cruise missiles that can target our ground forces, ships, 
military installations, and critical infrastructure; dense, 
integrated air defenses that pose a threat to even our most 
advanced aircraft; large numbers of modern fighter aircraft, 
including some fifth generation platforms, armed with capable 
air-to-air missiles that in some cases outrange our own; more 
advanced surveillance and reconnaissance systems, resilient 
command and control networks, electronic warfare capabilities, 
and anti-satellite and cyber weapons that, taken together, 
threaten our ability to achieve information dominance.
    By expanding contested battlespace and exacerbating the 
tyranny of distance, our adversaries are threatening our 
military's ability to project power, upon which rests the 
credibility of American deterrence. As they grow more capable, 
our adversaries are increasingly emboldened to engage in acts 
of provocation, coercion, and aggression that threaten our 
interests and our allies.
    Pick up this morning's paper and you will see how a Russian 
ship is now operating off the east coast of the United States.
    Here at home, we have only exacerbated the problem. In 
recent years, preoccupied with the fight against terrorism, 
hampered by a broken acquisition system, and shackled by the 
budget cuts and fiscal uncertainty, our military has 
prioritized near-term readiness at the expense of future 
modernization, giving our adversaries a chance to close the 
gap. Our military leaders have described this as, quote, 
mortgaging the future. But it appears few realized how soon the 
future would arrive.
    What all these developments mean is that America's military 
advantage is eroding and eroding fast. The wide margin for 
error we once enjoyed is gone, and in some of the most 
difficult scenarios our military may some day confront, we can 
no longer take victory for granted. In short, we will now hear 
from some of our witnesses today the risk is growing, that our 
Nation's military could lose the next war it is called upon to 
fight. If it does prevail, as I surely hope it would, success 
could very well come at a cost in blood and treasure we as a 
Nation have not paid since the Vietnam War.
    The question now is what we must do to reverse these trends 
and sustain and advance America's military advantage for the 
21st Century.
    Yes, we need to rebuild military capacity deliberately and 
sustainably, particularly in areas like undersea warfare where 
our Nation still maintains an advantage over our adversaries. 
But there is still a lot of truth in the old adage that 
quantity has a quality all its own. But adding capacity alone 
is not the answer. More of the same is not just a bad 
investment against increasingly advanced adversaries, it is 
downright dangerous.
    That means we have to reshape our military by investing in 
the modern capabilities necessary for the new realities of 
deterring conflict and competing with great powers that possess 
advanced military forces: longer-range, more survivable 
platforms and munitions; more autonomous systems; greater cyber 
and space capabilities, among other new technologies.
    It is not enough, however, just to acquire these new 
technologies. We must also devise entirely new ways to employ 
them. It would be a failure of imagination merely to conform 
emerging defense technologies to how we operate and fight 
today. Doing so would simply play into our adversaries' hands. 
Ultimately, we must shape new ways of operating and fighting 
around these new technologies.
    The good news is that our civilian and military leaders at 
the Department of Defense see this challenge clearly and are 
developing solutions to address these issues. But the progress 
they have made remains limited because of budget cuts and 
fiscal uncertainty that prevent effective, long-term strategic 
planning and investment. This is just one more reason why we 
have to remove the shackles of the Budget Control Act from the 
Department of Defense, and we have to do so immediately. 
Rebuilding and reshaping our military will not happen quickly. 
But the decisions we need to make to realize those goals are 
upon us. The future is now.
    In short, to sustain and advance America's military 
advantage for the 21st Century, we must not only rebuild our 
military, but we must rethink, re-imagine, and reshape it. This 
will entail tough choices. But these are the choices we must 
make to ensure that our military will be ready to deter and, if 
necessary, fight and win our future wars.
    Senator Reed?

                 STATEMENT OF SENATOR JACK REED

    Senator Reed. Well, thank you, Senator McCain, for calling 
this very, very important hearing.
    Also, let me thank the witnesses for being here today. 
Thank you, gentlemen, very much.
    The United States has relied on our military's dominance in 
every battle sphere since the end of the Cold War. We have not 
had a near-peer competitor for decades, and that has allowed us 
to take for granted certain fundamental aspects of projecting 
power and deterring and defeating aggression.
    Unfortunately, we are no longer in a position to assume our 
air, land, naval, space, and cyber superiority against 
potential adversaries. We are no longer able to assume that we 
can project power from the United States instead of being 
forward-based, and we can no longer assume that we have months 
to mobilize and move forces uncontested to respond to 
aggression.
    It should also not be a surprise to anyone that 15 years of 
fighting the wars in Afghanistan and Iraq forced us to make 
tradeoffs on long-term defense investment in order to support 
near-term readiness and to pay the costly bills from these two 
wars. During that time, other countries have modernized and 
made technological advances. Now we must focus on what our 
military needs to keep our competitive edge.
    I would also like to emphasize the need to be clear-sighted 
about our ability to predict conflicts and adversaries 15 to 20 
years out. As Defense Secretary Gates told West Point cadets, 
``When it comes to predicting the nature and location of our 
next military engagements, since Vietnam, our record has been 
perfect. We have never once gotten it right.'' If past is 
prologue, it is very possible that 20 years from now we will be 
facing adversaries and competitive environments that we did not 
expect. Therefore, we must ensure that our military is, above 
all, adaptable to the new crises that lurk unseen over the 
horizon.
    I hope that some of the technological innovations and 
organizational concepts that are being explored by the Defense 
Department will allow us to have a more effective, agile, and 
adaptable military. But underlying all of these considerations 
is, of course, the question, what will our national security 
strategy look like? We should not advocate for substantially 
higher investments that have a long spending tail unless and 
until we have fully articulated the strategy that will drive 
our budget. We also need to carefully examine the current 
budgets and programs of the services and agencies to ensure 
that they are aligned to meet the threats of the future in the 
time frames that we need.
    One additional point that cannot be overemphasized in my 
view. Our national defense strategy has always assumed a strong 
NATO alliance and an unwavering commitment to our allies in 
Asia since the end of World War II. Any disruption to those 
assumptions will require a fundamental rethinking of our 
strategy. Our successes in recent operations are due in large 
part to the allies and partners that stand shoulder to shoulder 
with our troops. Our commitment to those partners and allies is 
essential.
    Thank you, Mr. Chairman. I look forward to the testimony.
    Chairman McCain. I thank the witnesses for being here. We 
will begin with you, Mr. Ochmanek.

    STATEMENT OF DAVID A. OCHMANEK, SENIOR DEFENSE RESEARCH 
                   ANALYST, RAND CORPORATION

    Mr. Ochmanek. Thank you, Chairman McCain, Ranking Member 
Reed, members of the committee, and staff. I appreciate the 
opportunity to share insights that my colleagues and I have 
gained from our analysis of future military operations. Our war 
games and simulations, as the chairman suggested, point to the 
conclusion that U.S. Forces could fare poorly in the next war 
they are called upon to fight. As you requested, I will focus 
my remarks on what might be done to change these sobering 
projections.
    Specifically, I would like to highlight investment options 
that have the potential to address three important operational 
challenges facing the U.S. Forces. These are: one, threats 
posed by long-range strike systems; two, threats posed by 
advanced air defenses; and three, the simple tyranny of 
distance that we face when we try to project power overseas.
    So, number one, long-range strike systems. Because our 
adversaries are fielding large numbers of accurate ballistic 
and cruise missiles, our land and sea bases today are subject 
to attack as never before. There is no single silver bullet 
solution to this problem. Currently available ballistic missile 
defense systems are expensive and can be overwhelmed by modest-
sized missile salvos, and hunting down mobile ballistic 
missiles deployed deep in enemy territory is not a promising 
solution.
    Our wargaming, however, points to a number of ways in which 
we can increase the resiliency of forward bases and allow them 
to generate sustained combat power even in the face of these 
kinds of threats. Chief among these are: one, dispersing our 
forces across more bases, not concentrating them; two, creating 
uncertainty about the location of our forces by deploying them 
in redundant low-cost shelters, moving them frequently, and 
using decoys and deception measures; three, disrupting enemy 
reconnaissance capabilities; and four, making the bases 
themselves more resilient, more difficult to attack and 
suppress often through prosaic measures like rapid runway 
repair materials, fuel bladders, and fuel pumping facilities 
that are more survivable than the things we have today.
    Analysis also shows that active defenses against cruise 
missiles can be a very promising way to protect our forces 
abroad. The Army's short-range air defense system, the IFPC-2, 
seems particularly well suited to defeating even large salvos 
of cruise missiles.
    Another part of the solution will be to rely more heavily 
on long-range bombers and submarines. Repeatedly in our war 
games, our bombers operate relatively unscathed by missile 
attacks, but fail to make decisive contributions to the defense 
because they run out of suitable munitions. U.S. Forces could 
get much more capability from the existing bomber fleet by 
expanding inventories of weapons like the JASSM-ER cruise 
missile, the MALD, miniature air-launched decoy, and 
accelerating the development of new weapons such as anti-ship 
cruise missiles and swarming unmanned aerial vehicles that the 
bombers could deliver.
    Similarly, the Virginia-class submarine has unparalleled 
stealth capabilities and can fight from areas off the coast of 
adversary states, but it has limited weapons carrying capacity. 
The Virginia payload module boosts this capacity, and other 
promising concepts such as unmanned underwater vehicles that 
are being developed.
    Challenge two is overcoming advanced air defenses. Russia 
and China are fielding air defenses of such density and 
sophistication that our forces will not have time to 
comprehensively suppress them before going after the invading 
forces that they need to attack. Therefore, our forces need to 
find ways to reach into the air defense zone to find and strike 
targets of highest priority from the outset of the campaign. 
Three types of capabilities are called for to achieve this 
capability.
    One is sensors that can survive in contested environments 
and allow us to see the battlefield from space, from airborne 
platforms, and from land-based sensors or surface-based 
sensors. The idea is to spread these sensor networks across a 
number of different platform types and domains so that some 
portion of them will be available at all times.
    Second is communication links that can effectively connect 
sensors, control centers, and shooters even in the presence of 
heavy jamming threats. Again, robustness will be achieved here 
through versatility and redundancy.
    Three, distributed networks of delivery platforms and 
weapons that can strike key targets both within and beyond the 
contested area. Examples of these include the sort of standoff 
attack missiles that I spoke of earlier for the bomber and 
submarine forces, but also swarms of inexpensive autonomous 
weapons and specialized weapons for attacking armored vehicles, 
ships, and surface-to-air missile systems.
    Finally, the tyranny of distance. A big part of the problem 
we face in NATO today can be remedied simply by putting 
appropriate forces, munitions, and support assets back into 
Europe. Russia's armed forces are not superior to ours in most 
dimensions, but they have geographical advantages. They can 
amass ground forces on NATO's borders far more quickly than we 
can respond. Last year's European Reassurance Initiative, which 
funded the deployment of Army ground forces into Europe, is a 
step in the right direction, but our analysis suggests that 
more is necessary, and our allies have shown that they are 
willing to do their part.
    I have included in my written statement a chart that 
provides a more complete list of the types of capabilities that 
our research suggests merit the highest priority for 
investments.
    Again, thank you for the opportunity to appear before this 
committee. I look forward with my colleagues to answering your 
questions.
    [The prepared statement of Mr. Ochmanek follows:]
   PREPARED STATEMENT BY DAVID OCHMANEK \1\, THE RAND CORPORATION \2\
---------------------------------------------------------------------------

    \1\ The opinions and conclusions expressed in this testimony are 
the author's alone and should not be interpreted as representing those 
of the RAND Corporation or any of the sponsors of its research.
    \2\ The RAND Corporation is a research organization that develops 
solutions to public policy challenges to help make communities 
throughout the world safer and more secure, healthier and more 
prosperous. RAND is nonprofit, nonpartisan, and committed to the public 
interest.
---------------------------------------------------------------------------
    Good morning, Chairman McCain, Ranking Member Reed, members 
of the committee, and staff. I appreciate the opportunity to 
share insights that my colleagues and I have gained from more 
than a decade of analyzing emerging threats to U.S. military 
operations. Our work has revealed some serious and growing gaps 
in the capabilities of U.S. Forces, raising questions about 
their ability to accomplish the strategically important mission 
of deterring and defeating aggression by adversary states. I 
therefore applaud the committee's efforts to focus attention on 
how the Department of Defense (DOD) can best act to reverse the 
deterioration in the military balance of power in key regions.
    The security environment in which U.S. Forces operate and 
for which they must prepare is, in important ways, more complex 
and more demanding than the one that DOD has used to build and 
evaluate today's force. To be clear:

    <bullet>  Our force planning prior to Russia's attacks on 
Ukraine did not take account of the need to deter large-scale 
aggression against the North Atlantic Treaty Organization 
(NATO).
    <bullet>  We also have not moved quickly enough to provide 
the capabilities and basing posture needed to meet the manifold 
challenges posed by China's rapidly modernizing armed forces.
    <bullet>  The prospect of deliverable nuclear weapons in 
the hands of North Korea and, potentially, Iran poses 
challenges for which we do not have satisfactory answers.
    As these threats have emerged and our forces have carried 
on a multifaceted campaign against Salafist-jihadi forces in 
several locales, the Nation has not committed the resources 
called for to build and sustain the capabilities that our 
forces need to succeed in this more demanding environment. As a 
result, the United States now fields forces that are 
simultaneously:

    <bullet>  larger than needed to fight a single major war,
    <bullet>  failing to keep pace with the modernizing forces 
of great power adversaries,
    <bullet>  poorly postured to meet key challenges in Europe 
and East Asia,
    <bullet>  insufficiently trained and ready to get the most 
operational utility from many active component units.

    Put more starkly, our wargames and simulations suggest that 
U.S. Forces could, under plausible assumptions, lose the next 
war they are called upon to fight. \3\
---------------------------------------------------------------------------
    \3\ For a succinct assessment of the military balance between 
Russia and NATO and the prospects for a defense of the Baltics, see 
David A. Shlapak and Michael W. Johnson, Reinforcing Deterrence on 
NATO's Eastern Flank, Santa Monica, CA: RAND Corporation, RR-1253-A, 
2016. For an assessment of trends in China's armed forces and their 
implications for U.S. defense strategy and planning, see David 
Ochmanek, Sustaining U.S. Leadership in the Asia-Pacific Region, Santa 
Monica, CA: RAND Corporation, PE-142-OSD, 2015.
---------------------------------------------------------------------------
    Of course, DOD has not been idle in the face of these 
developments. The defense development community, the services, 
and industry are generating new ideas, technologies, and 
operating concepts that offer real promise for countering the 
threats that are the cause for greatest concern. For the 
remainder of this testimony, I would like to highlight a few of 
these new approaches and show how they can enable a robust 
defense in the face of emerging challenges.
    One of the most vexing problems facing power projection 
operations stems from the proliferation of accurate, long-range 
strike systems--ballistic and cruise missiles. Our land and sea 
bases today are exposed to attack as never before.
    There is no single, ``silver bullet'' solution to these 
threats. Hunting down mobile missiles deployed deep in enemy 
territory is not a promising solution. Currently available 
ballistic missile defense systems are expensive and can be 
overwhelmed by modest-sized missile salvos. But wargaming shows 
that a number of complementary efforts can significantly 
increase the resiliency of forward bases and allow them to 
generate sustained combat power even in the face of repeated 
attacks. Chief among these are:

    <bullet>  dispersing forward-based forces across a larger 
number of bases
    <bullet>  creating uncertainty about the location of those 
forces by parking them in redundant, low-cost shelters, moving 
them frequently, and using decoys and deception measures
    <bullet>  disrupting enemy reconnaissance capabilities
    <bullet>  making bases themselves more resilient; this 
generally calls for rather prosaic steps, such as positioning 
rapid runway repair materials and fuel bladders at each base 
and reducing the vulnerability of key nodes, such as fuel 
pumping facilities.

    Analysis also shows the value of active defenses against 
cruise missile attacks. The Army's new short-range air defense 
system, IFPC-2, seems particularly well suited to defeating 
even sizable salvos of cruise missiles.
    Another part of the answer to the vulnerability of forward 
bases is to rely more heavily on platforms that can fight 
either from afar (long-range bombers) or from sanctuary 
(submerged submarines). In wargames, U.S. bombers--B-52s, B-1s, 
and B-2s--often operate relatively unscathed by missile attacks 
but fail to make decisive contributions to defense because they 
run out of munitions that they can survivably deliver. U.S. 
Forces could get much more capability from the bomber fleet by 
greatly expanding inventories of weapons like the Joint Air-to-
Surface Standoff Missile--Extended Range (JASSM-ER) and 
miniature air-launched decoy (MALD) cruise missiles and by 
accelerating the development of new weapons, such as antiship 
cruise missiles and swarming unmanned aerial vehicles (UAVs), 
that can be delivered by our bombers.
    Similarly, the Virginia-class submarine has unparalleled 
stealth capabilities and can fight from areas off the coast of 
adversary nations, but it has limited weapons carrying 
capacity. The Virginia Payload Module modification boosts this 
capacity. Other promising concepts for affordable delivery of 
payloads from undersea are being developed, such as unmanned 
underwater vehicles.
    A second priority for the force is to find more robust ways 
to rapidly detect, track, and attack key military targets--the 
enemy's operational centers of gravity, if you will--in 
contested areas from the outset of a campaign. What do I mean 
by this? Traditionally, U.S. Forces open military campaigns by 
first establishing freedom of maneuver in the air, at sea, and 
on land. Once the enemy's air defenses have been suppressed, 
for example, our air forces are free to observe and attack 
other targets--the enemy's ground forces, naval forces, command 
and control centers-- more or less at will. This approach has 
been central to the success of U.S. military operations since 
World War II.
    Russia and China are fielding air defenses of such density 
and sophistication that our forces will not have time to 
comprehensively suppress them before going after the invading 
force they need to defeat. Therefore, our forces need to find 
ways to ``reach into'' defended airspace to find and strike the 
targets of highest priority.
    What will it take to do this? Three types of capabilities:

    1.  Sensors that can survive in defended environments. 
These may be deployed on a range of platforms, such as small 
satellites; stealthy UAVs; swarms of small, expendable UAVs; 
and robotic sensors on the surface. The idea is to spread 
sensors across a number of different platform types so that 
some portion will be available at all times.
    2.  Communication links that can function effectively in 
conditions of heavy jamming and maintain data pathways among 
sensors, control centers, and shooters. Again, robustness will 
be achieved through versatility and redundancy. Airborne and 
terrestrial systems may be called for to back-up key 
capabilities on satellites, such as GPS and communications.
    3.  Distributed networks of delivery platforms and weapons 
that can strike key targets from both within and beyond the 
contested area. Examples of these include the sorts of standoff 
attack missiles that I spoke of earlier for the bomber and 
submarine forces, swarms of inexpensive autonomous weapons, and 
specialized weapons for attacking armored vehicles, ships, and 
surface-to-air missile systems.

    One other observation: A significant portion of the 
capability gap we face on NATO's eastern flank today can be 
remedied simply by putting appropriate forces, munitions, and 
support assets back in Europe. Russia's armed forces are not 
superior to ours in most dimensions, but they have the 
advantage of geographical proximity: Today they can mass ground 
forces on NATO's borders far more quickly than NATO can 
respond. Last year's European Reassurance Initiative, which 
funded, among other things, the deployment of Army ground 
forces in Europe, is a step in the right direction. But more is 
necessary, and our European allies have shown that they are 
ready to do their part.
    At the conclusion of this statement, I have included a 
chart that provides a more complete list of the types of 
capabilities that our research suggests merit the highest 
priority for investments intended to redress the growing 
imbalance between the capabilities of U.S. Forces and those of 
our most capable adversaries. Those capabilities are grouped 
according to the adversary to which they are most relevant.
    One caveat: The research on which this testimony is drawn 
focused on understanding and countering the threats posed by 
state adversaries, such as China, Russia, North Korea, and 
Iran. My work has not delved deeply into issues of the 
readiness of U.S. Forces, or the stresses that high operational 
tempos may be imposing on people and units. I have also not 
addressed the need to recapitalize U.S. Nuclear Forces. The 
absence of recommendations in these areas should not be taken 
as implying that investments there are not warranted.

                               CONCLUSION

    DOD's leadership knows generally what is needed in order to 
counter most, if not all, of the operational challenges posed 
by our most capable adversaries. Many of the technologies 
needed to make innovative reconnaissance, communications, and 
weapon systems into realities are mature, and the services are 
devising and testing new operational concepts for employing 
these systems.
    The two things that are needed now are money and insight: 
additional money to allow the DOD to move swiftly to develop, 
acquire, and field new systems and postures, and insight based 
on analysis to guide decisionmaking, so that funding goes to 
investments that have the potential to make the greatest and 
most enduring contributions to a robust defensive posture vis-
a-vis China, Russia, and other adversaries. The Trump 
Administration and the 115th Congress have the opportunity to 
rectify the strategy-forces mismatch that has arisen over the 
past several years and put the United States back on a path 
toward fielding forces that can defeat any adversary.
    One note of caution: Fielding the sorts of capabilities I 
have highlighted here should not, in most cases, be expected to 
restore to U.S. Forces the degree of overmatch that they 
enjoyed against regional adversaries of the past, such as Iraq 
and Serbia. Any major conflict involving China, Russia, or 
North Korea is bound to be a costly and bloody affair. But I 
believe that it is within our means--technologically, 
operationally, and fiscally--to field forces capable of 
confronting even the most capable adversaries with the prospect 
of defeat if they choose aggression. That is the gold standard 
of deterrence, and it is the standard to which we should 
aspire.
    Again, thank you for the opportunity to appear before this 
committee. I look forward to answering your questions.

       Table 1. Priority Enhancements to U.S. Forces and Posturea
------------------------------------------------------------------------
 
------------------------------------------------------------------------
China                                   <bullet> Accelerated development
                                         and fielding of a longer-range,
                                         fast-flying radar-homing air-to-
                                         surface missile* and a longer-
                                         range air-to-air missile*
                                        <bullet> Forward-based stocks of
                                         air-delivered munitions,
                                         including cruise missiles
                                         (e.g., joint air-to-surface
                                         standoff missile and joint air-
                                         to-surface standoff missile-
                                         extended range, long-range
                                         antiship missile),* surface-to-
                                         air missile suppression
                                         missiles (e.g., homing
                                         antiradiation missile,
                                         miniature air-launched decoy),*
                                         and air-to-air missiles (e.g.,
                                         AIM-9X and AIM-120)*
                                        <bullet> Prepositioned equipment
                                         and sustainment for ten to 15
                                         platoons of modern short-range
                                         air defense systems (SHORADS)
                                         for cruise missile defense
                                        <bullet> Additional base
                                         resiliency investments,
                                         including airfield damage
                                         repair assets and expedient
                                         aircraft shelters, and
                                         personnel and equipment to
                                         support highly dispersed
                                         operations
                                        <bullet> Accelerated development
                                         of the Next-Generation Jammer*
                                        <bullet> A high-altitude, low-
                                         observable UAV system*
                                        <bullet> More-resilient space-
                                         based capabilities (achieved by
                                         dispersing functions across
                                         increased numbers of satellites
                                         and increasing the
                                         maneuverability, stealth, and
                                         ``hardness'' of selected
                                         assets)*
                                        <bullet> Counter-space systems,
                                         including kinetic and
                                         nonkinetic (e.g., lasers,
                                         jammers) weapons*
------------------------------------------------------------------------
Russia                                  <bullet> Items listed under
                                         ``China'' that are marked with
                                         an *
                                        <bullet> Three heavy brigade
                                         combat teams and their
                                         sustainment and support
                                         elements forward based or
                                         rotationally deployed in or
                                         near the Baltic states
                                        <bullet> One Army fires brigade
                                         permanently stationed in
                                         Poland, with 30-day stock of
                                         artillery rounds; one
                                         additional fires brigade set
                                         prepositioned . Forward-based
                                         stocks of artillery and
                                         multiple launch rocket system
                                         rounds; antitank guided
                                         missiles
                                        <bullet> Forward-based stocks of
                                         air-delivered antiarmor
                                         munitions (e.g., Sensor Fused
                                         Weapon Pre-Planned Product
                                         Improvement)
                                        <bullet> Station or rotationally
                                         deploy eight to 12 platoons of
                                         SHORADS forces in NATO Europe
                                        <bullet> Increased readiness and
                                         employability of mechanized
                                         ground forces of key NATO
                                         allies
------------------------------------------------------------------------
Iran                                    <bullet> Improved, forward-
                                         deployed mine countermeasures .
                                         High-capacity close-in defenses
                                         for surface vessels
------------------------------------------------------------------------
North Korea                             <bullet> Improved intelligence,
                                         surveillance, and
                                         reconnaissance systems for
                                         tracking nuclear weapons and
                                         delivery systems
                                        <bullet> Exploratory development
                                         of boost-phase ballistic
                                         missile intercept systems
                                        <bullet> Continued investments
                                         to improve the reliability and
                                         effectiveness of the ground-
                                         based intercept system to
                                         protect the United States
------------------------------------------------------------------------
Salafist-Jihadi Groups                  <bullet> Improved intelligence
                                         collection and analysis
                                         capabilities and capacity
                                        <bullet> Acquire next-generation
                                         vertical takeoff and landing
                                         aircraft
                                        <bullet> Acquire Light
                                         Reconnaissance and Attack
                                         Aircraft
                                        <bullet> Develop powered
                                         exoskeleton, also known as the
                                         Talon Project
                                        <bullet> Develop swarming and
                                         autonomous unmanned vehicles
------------------------------------------------------------------------
a David Ochmanek, Peter A. Wilson, Brenna Allen, John Speed Meyers, and
  Carter C. Price, U.S. Military Capabilities and Forces for a Dangerous
  World: Rethinking the U.S. Approach to Force Planning, Santa Monica,
  Calif.: RAND Corporation, RR-1782-IRD, forthcoming.

    Chairman McCain. Mr. Thomas?

   STATEMENT OF JAMES P. THOMAS, PRINCIPAL, THE TELEMUS GROUP

    Mr. Thomas. Good morning, Mr. Chairman, Ranking Member 
Reed, and distinguished members of the committee. I appreciate 
the opportunity to appear before you today.
    The chairman's recent white paper, ``Restoring American 
Power,'' rightfully argues that reshaping the U.S. military 
should be given priority over resizing. I certainly agree. 
Getting the shape right is, in fact, more important over the 
long haul before we think about the question of size. This will 
involve determining the desired characteristics of the force, 
its attributes, as well as its organizational design.
    The truth of the matter is today our force is simply 
misshaped for many of the military challenges we face. It 
remains too rooted in the 1990s design that was over-optimized 
for conventional regional wars more akin to Operation Desert 
Storm, and it is relatively less prepared for protracted 
counter-insurgencies, global counterterrorism, and the 
expansion of warfare into new domains like cyber and space.
    Take cyber warfare, for example. We know that this is 
emerging as one of the most important domains of military 
competition as countries and non-state actors alike attempt to 
protect the viability of their networks while disrupting those 
of adversaries, including the United States. Yet, we have only 
begun to take rudimentary steps, initial steps to begin better 
organizing, training, and equipping our forces for this 
critical mission.
    More broadly, our conventional military overmatch is 
rapidly eroding in the face of great power revisionist states 
like Russia and China that have adapted particular asymmetric 
strategies to circumvent traditional U.S. military strengths 
while imposing costs on the United States and its allies in 
ways that are becoming very difficult to counter. They are 
developing anti-access and area denial capabilities, 
modernizing their nuclear forces, engaging in gray zone 
activity below the threshold of war, and conducting cyber 
attacks even in peacetime. These can no longer be considered 
future challenges and we can no long afford to defer efforts to 
reshape the U.S. military to address them.
    The United States finds itself today confronting these 
challenges with a much narrower margin of military advantage 
but with far greater fiscal constraints and with a less unified 
set of allies and partners than it had during the Cold War or 
its immediate aftermath.
    There is no single approach or strategy that can 
effectively address the full range of these challenges. 
Instead, as Chairman McCain noted in ``Restoring American 
Power,'' the Department of Defense will need to fashion 
regionally tailored strategies and force packages suited to the 
unique requirements of Europe, East Asia, and the Middle East. 
This is a point worth underscoring.
    Efforts to reshape the force should be focused on specific, 
particular military operational problems. Each potential 
adversary in the theater will necessitate a unique approach, 
and across the board, we will need a new high-low mix of 
capabilities.
    At the low end, the key attributes will be to reduce 
procurement and sustainment costs and the ability to field 
large numbers of weapons and platforms for steady state 
operations in relatively permissive operating environments. 
Many of our legacy forces and capabilities already fit this 
bill.
    On the high side, we will need two basic elements. First is 
regionally tailored forces that are highly lethal and 
survivable and can deter local aggression by potential 
adversaries. These, in turn, will have to be backstopped by a 
more globally fungible surveillance and strike swing force that 
can operate at long ranges both physically and virtually to 
penetrate denied areas and hold at risk large numbers of 
hostile military forces and other targets with conventional, 
nuclear, or nonkinetic weapons.
    Regionally tailored forces in Europe and Asia in particular 
would place a premium on permanently forward-stationed ground 
forces because it may be too risky to deploy them in crisis or 
time of war, and they may be too slow arriving to make a 
difference.
    The globally fungible, long-range surveillance and strike 
element of the force would include offensive cyber warfare, as 
well as air, naval, and missile systems to rapidly respond to 
threats globally while operating from great distances with 
large sensor and weapons payloads, penetrate into denied areas, 
evade detection, and persist to strike elusive targets, conduct 
electronic and cyber attacks, and sustain with minimal theater 
basing or logistical support.
    Together it is these two components which should serve as 
the basis for reshaping the U.S. military. Now is the time to 
make this transition to begin to reshape at least a portion of 
our military so that we can effectively deter and prevail 
across the range of competitions and conflicts we will face 
over the next several decades.
    This concludes my opening statement, and I look forward to 
your questions. Thank you.
    [The prepared statement of Mr. Thomas follows:]

                 Prepared Statement by James P. Thomas
    Chairman McCain, Ranking Member Reed, and distinguished members of 
the Committee, I appreciate the opportunity to appear before you today 
to discuss the security challenges our Nation confronts, the urgent 
need to reshape our military forces, and the attributes our forces will 
need moving forward. The Chairman's recent white paper, Restoring 
American Power, rightfully argues that reshaping the U.S. military 
should be given priority over resizing. There is little question that 
we need to do both, but too often in American force planning 
discussions, there is a tendency to rush to judgment about the size of 
the U.S. military before first figuring out what kind of military 
forces are most appropriate for the strategic circumstances we 
anticipate. I strongly support the idea that determining the shape of 
the force--in terms of its desired characteristics, attributes, and 
organization design--should precede questions of force size.
    Our military today remains too rooted in the force design of the 
early 1990s. The return of great power competitions, however, makes it 
imperative to reshape the U.S. military to ensure it has an appropriate 
high-low mix of regionally-tailored forces coupled with a global 
surveillance and strike ``swing force'' to deter aggression and deny 
adversaries their objectives. Moving toward this new force design 
should be a matter of great urgency for the Pentagon and the Congress.
              origins of the u.s. military's present shape
    Understanding why the U.S. military needs to be reshaped warrants a 
brief review of the current force's origins. In the immediate aftermath 
of the Cold War, we over-optimized our forces for conventional regional 
wars akin to Operation DESERT STORM, leaving them less prepared for 
protracted counterinsurgencies, global counterterrorism, and the 
expansion of warfare into new domains like cyber and space. We narrowly 
viewed the revolution in precision weaponry as benefiting the U.S. 
military, while failing to appreciate how other powers could leverage 
such capabilities to achieve local air and sea denial, as well as build 
up missile strike forces to hold our theater bases at risk. We assumed 
a degree of conventional military overmatch that would last for many 
decades to come but that we now see is rapidly vanishing. And we have 
been too slow to walk away from overly rosy force planning assumptions 
that undergirded the shape of the post-Cold War force, including that:

    <bullet>  Wars would be short, conventional and intense;
    <bullet>  Operating conditions would be fairly permissive--we would 
have at the outset (or quickly achieve) air superiority, naval 
supremacy, information dominance, and land control;
    <bullet>  Munitions inventories could be smaller because a single 
precision-guided weapon could destroy a single target;
    <bullet>  Ground forces could rely more on air forces for assured 
air superiority and strike, and thereby shed their organic short-range 
air defenses and indirect fires;
    <bullet>  Combat aircraft could be based ashore close to a 
potential regional adversary and aircraft carriers could sail just off 
an enemy's coast;
    <bullet>  Enemy integrated air defense systems (IADS) could quickly 
defeated;
    <bullet>  Land and air combat forces could largely be based in the 
continental United States and then surge forward expeditionary-style to 
evict hostile invaders;
    <bullet>  An increasing share of the Navy's surface fleet could be 
dedicated to defending against ballistic missiles while sacrificing 
some of its offensive strike capabilities;
    <bullet>  The submarine force could be allowed to shrink because it 
would be less relevant in operations against regional states;
    <bullet>  Commercial ``just-in-time'' logistics could be leveraged 
to achieve cost savings and efficiencies;
    <bullet>  Communications networks would be assured;
    <bullet>  Space would be a sanctuary that could be exploited freely 
to gain tactical, operational and strategic advantages; and
    <bullet>  Nuclear weapons could be de-emphasized and replaced by 
conventional precision strike capabilities.

    These assumptions have largely been invalidated by the realities we 
now face at the end of the post-Cold War era.
                    addressing a panoply of threats
    Today, the United States faces major challenges to world order 
across three distinct geographic regions on the periphery of Eurasia--
Europe, East Asia, and the Middle East. Testifying before this 
Committee last winter Dr. Henry Kissinger observed, ``The United States 
has not faced a more diverse and complex array of crises since the end 
of the Second World War.'' In lieu of a single hegemonic threat as the 
Soviet Union posed during the Cold War, the United States now confronts 
a more complex panoply of threats. Great power revisionist states like 
Russia and China, nuclear outlaw states like North Korea, foes bent on 
sectarian war like Iran, and transnational Jihadist groups--all have 
adopted particular asymmetric strategies to circumvent traditional U.S. 
military strengths while imposing costs on the United States and its 
allies in ways that are difficult to counter. Smaller states and non-
state actors have resorted to irregular warfare and terrorism. Larger 
powers are exploiting Gray Zone actions below the threshold of war, 
pursuing conventional precision strike systems to create anti-access / 
area denial battle networks, leveraging cyber warfare to hack U.S. 
systems, and modernizing their nuclear forces for escalation control.
    For its part, the United States finds itself approaching these 
challenges with a narrower margin of military advantage but with far 
greater fiscal constraints, and a less unified set of allies and 
partners than it had during the Cold War or its immediate aftermath. 
The viability of America's traditional means of projecting military 
power abroad is waning, while its ability to check regional aggression 
by potential adversaries is limited. A survey of the three major 
theaters of concern to the United States demonstrates these 
deficiencies:
    In Europe, Vladimir Putin's Russia is attempting to reestablish 
itself as a great power and restore its historic sphere of influence to 
the maximum extent over its ``near abroad.'' To achieve this vision, 
the Chief of the Russian General Staff, Valery Gerasimov, has outlined 
what he calls ``New Generation Warfare,'' blurring the distinctions 
between peace and war, while blending covert action, political and 
economic warfare, conventional military force, radio-electronic combat, 
and cyber warfare, as well as nuclear and other forms of strategic 
attack to prevail in full-spectrum conflicts and long-term great power 
competitions. It has fielded ground-launched cruise missiles in 
violation of the 1987 Intermediate Nuclear Forces (INF) Treaty. 
Russia's particular style of confrontation, moreover, exploits the 
minority status of ethnic Russians in neighboring states as a pretext 
for undermining the sovereignty of those states while potentially 
providing sanctuary for Russian regional power projection (as already 
demonstrated in eastern Ukraine). Moscow has ordered large-scale snap 
exercises close to the Baltic states and Poland, flexing its muscles in 
the form of armor and rocket artillery, in sharp contrast with the 
paucity of comparable NATO forces on the territory of allied frontline 
states. Russia, moreover, has concluded some of these exercises with 
simulated tactical nuclear strikes on NATO cities. The Russian military 
has steadily modernized both its strategic and tactical nuclear forces 
and adopted a doctrine that envisages the early use of tactical nuclear 
weapons to ``escalate to deescalate'' and thereby prevail in local 
wars, exploiting favorable asymmetries in interest, geographic 
proximity and time. Beyond its nuclear forces, Russia is also expanding 
its other options for strategic attacks on the United States ranging 
from political warfare and active measures, to cyber warfare, to 
attacks on America's undersea infrastructure and offensive space 
control operations.
    In East Asia, China's sustained economic growth has propelled a 
massive defense build-up of advanced conventional air, missile and 
naval capabilities for the past twenty years that dwarfs comparable 
efforts by Russia in all but its strategic nuclear force modernization. 
In turn, China's growing military strength has backstopped its 
diplomatic assertiveness over unilateral claims in the East and South 
China Seas. It has steadily expanded its air and sea denial 
capabilities while improving its ability to hold the small number of 
U.S. air and naval bases in the Far East at risk and thereby impede the 
ability to flow additional forces into the theater and force the United 
States to fight from range. China has built up a sizable inventory of 
mobile-launched, precision-guided, intermediate- and medium-range 
conventional ballistic missile forces, advanced air combat and naval 
strike forces, as well as integrated network and electronic warfare 
capabilities it believes are needed to prevail in a short, unrestricted 
local war against a distant, ``informationized'' enemy like the United 
States. Underneath the aegis of its ``anti-access/area denial'' shield, 
it can employ non- and paramilitary forces, including its fishing fleet 
and coast guard, to expand its maritime presence in the East and South 
China Seas, while constructing and militarizing reefs with artificial 
land features in the latter. Finally, China has achieved a credible 
second-strike nuclear deterrent and recently tested an intercontinental 
range ballistic missile dispensing multiple independently targeted 
warheads.
    While North Korea is by no means a great power, it nevertheless 
presents an acute threat to the United States and its proximate 
neighbors--particularly, but not limited to, our close allies Japan and 
South Korea--through its pursuit of increasingly survivable 
intermediate- and intercontinental-range ballistic missiles, coupled 
with the continued expansion of its nuclear weapons inventory. North 
Korea represents the most salient case where deterrence may not hold, 
given the erratic behavior of its ruler, Kim Jong Un. North Korean 
leaders may believe that if they were able to demonstrate a credible 
capability to mate and deliver a nuclear warhead with an 
intercontinental ballistic missile, that they could attack South Korea 
or Japan with impunity while deterring the United States from 
intervening for fear of nuclear strikes against the U.S. homeland.
    In the Middle East, the United States is confronted not so much by 
a great power hegemonic threat as by the prospect of further disorder 
and disintegration as the longstanding political order melts down. As a 
latent nuclear (albeit not a classic great) power Iran poses the 
greatest military threat to U.S. interests in the region. It has 
improved its ability to wage unconventional warfare and support proxy 
conflicts throughout the region, for example by using the Quds Force 
and its Lebanon-based surrogate Hezbollah in the Syrian conflict. It is 
building up advanced deep strike missile forces, aerial drones and 
other unmanned strike systems, as well as anti-ship weapons. And Iran 
has the potential to breakout from international monitoring efforts and 
acquire a nuclear weapon within a few years. At the same time, Jihadist 
organizations like Al Qaeda and the quasi-state of ISIL present very 
different sorts of threats, coupling hybrid warfare (unconventional 
uses of advanced weaponry) with terrorism. The nuclear and 
unconventional threats posed by Iran on the one hand, and the insurgent 
and terrorist threats posed by al Qaeda and ISIL on the other, will 
present the United States with counter-proliferation and counter-
terrorism challenges for many years to come.
    Together, these challenges suggest the United States is entering a 
new strategic era characterized by the return of great power 
competitions overlaid on a map where regional nuclear dangers and the 
persistent threat posed by violent transnational Jihadist movements are 
already prominent terrain features. These can no longer be considered 
future challenges, and we can no longer afford to defer efforts to 
reshape the U.S. military to address them. Similarly, there is no 
single approach or strategy that can effectively address all of these 
challenges. Instead, as the Chairman McCain noted in Restoring American 
Power, the Department of Defense will need to fashion regionally 
tailored strategies and force packages, suited to the unique 
requirements of these different challenges and the military 
capabilities required to address them.
             reshaping the military for a new strategic era
    Addressing these threats effectively will require a new high-low 
mix of capabilities. On the ``low'' side, the key attributes will be 
reduced procurement and sustainment costs and the ability to field 
large numbers of weapons and platforms for steady-state operations in 
relatively permissive environments. Many of our legacy forces and 
capabilities already fit this bill. For instance, we have built up a 
large fleet of non-stealthy remotely piloted vehicles over the past 
decade that will continue to have utility in many areas of the world 
where enemy air defense threats are non-existent or rudimentary.
    Conventional deterrence of great powers like Russia and China, 
however, will necessitate reshaping a large portion of our forces to 
ensure they can deploy, operate and be sustained in far less permissive 
operating environments than they have faced since the end of the Cold 
War. Force planning for the high-end should assume that: (1) forces 
will operate in denied communications environments; (2) space will be 
contested; 3) neither our forward bases nor our homeland will be 
sanctuaries; (4) adversaries will be able to deny us the degree of 
local air and sea control to which we have grown accustomed; (5) only 
the most survivable aircraft and munitions will be able to penetrate 
and conduct surveillance and strikes over hostile territory ringed with 
advanced air defenses; (6) large surface combatants will be at risk 
near a hostile coast; and (6) large land formations will run far 
greater risks entering contested theaters in crisis or after a war has 
begun.
    Consistent with these assumptions, the high-end force can be 
divided into two basic elements: highly survivable and lethal 
regionally-tailored forces to counter local power projection by 
potential adversaries, and a globally fungible surveillance and strike 
``swing force'' that can operate from long ranges to penetrate denied 
areas and hold at risk large numbers of hostile military forces and 
other targets with conventional, nuclear, or non-kinetic weapons.
    Regionally-tailored forces in Europe and Asia would place a premium 
on permanently stationed ground forces because it may be too risky to 
deploy them in crisis or time of war or they may be too slow arriving 
to make a difference. Rather than serving simply as local ``tripwire'' 
forces as in the Cold War, U.S. ground forces working side-by-side 
local allied forces should be far more capable of repelling invading 
forces by dominating the land approaches, denying hostile forces 
aircover, holding enemy ships at risk, and preventing an enemy's 
effective use of the electro-magnetic spectrum. Unmanned ground 
vehicles would be particularly useful for a forward-stationed force in 
Europe as they would increase the lethality of the force while helping 
to minimize the risks to Soldiers in close proximity to numerically 
superior enemy strike forces. Given Russia's ability to overrun the 
small Baltic states in a matter of hours, the United States should give 
serious consideration to the permanent forward stationing of several 
multi-domain combat brigades on the territory of the Baltic states. 
These forces should be armed with multi-mission missile launchers to 
conduct air defense, counter-battery, deep strike, electronic warfare 
and anti-ship strikes armed with a deep magazine of various munitions 
to repel military attacks or incursions against the frontline NATO 
states. Similarly, Special Forces should be stationed in the Baltics 
and Poland to work with local territorial defense militias, training, 
advising, assisting them in resistance tactics and air-ground 
integration employing short-range precision-guided mortars, artillery 
and rocket systems to hold at risk invading or occupying foreign 
forces.
    The United States should also reconsider long-standing arms control 
conventions such as the INF Treaty, which proscribes land-based 
missiles with ranges between 500-5,500km. INF-class missiles could play 
a greater role in maintaining regional military balances in the coming 
years, particularly given that Russia is already violating the treaty 
while China, North Korea and Iran are building up sizable arsenals of 
missiles with those ranges. Allowing the U.S. Army to re-enter the 
long-range strike enterprise would be a game changer in great power 
competitions and greatly complicate the calculations of potential 
adversaries.
    At the same time, the globally fungible long-range surveillance and 
strike element of the force will need to emphasize air and naval 
platforms as well as munitions with the ability to: respond rapidly to 
threats globally while operating from long-range with large sensor and 
weapons payloads; penetrate into denied areas; evade detection and 
persist to strike elusive targets; conduct electronic and cyber 
attacks; and sustain with minimal theater basing or logistical support.
    For combat air forces, unmanned long-range penetrating surveillance 
and strike aircraft could help the U.S. military operate more 
effectively in the face of growing threats China could pose to close-in 
airbases. Similarly, sea-based surveillance and strike aircraft will 
need to operate from beyond the reach of enemy anti-ship sensor and 
strike capabilities, be capable of aerial refueling at the outer edge 
of an enemy's own maximum fighter range, and be sufficiently survivable 
to penetrate sophisticated air defenses in order to locate and strike 
mobile fleeting targets in coastal areas, including enemy air defenses. 
Given the demands of endurance, high-end combat air forces should be 
unmanned.
    A greater proportion of naval high-end standoff strike capability 
will need to migrate undersea to perform close-in missions in contested 
maritime areas. Submarines and unmanned underwater vehicles, which are 
among the most fungible elements of the Joint Force, may also take on 
new cross-domain missions such as suppressing enemy air defenses, 
holding high-value aircraft at risk, and disrupting an enemy's long-
range sensors to ``open'' a theater for other naval and joint forces. 
At the same time, 100+ ton displacement unmanned underwater vehicles 
could complement manned submarines to achieve a more distributed 
undersea surveillance and strike constellation and perform riskier 
combat missions. Puncturing enemy-imposed air and sea denial areas may 
also place a greater premium on cyber warfare and electro-magnetic 
operations conducted by naval and amphibious forces to create a 
multitude of false target apparitions that overwhelm the processing 
capabilities of enemy sensor nets.
    The U.S. military's space posture, which by its nature is 
inherently fungible, will also need to be modernized to support 
regionally tailored forces and global surveillance and strike with 
strategic early warning; persistent and resilient surveillance; and 
protected long-haul communications systems. In turn, this will 
necessitate exploration of innovative low-cost means of accessing 
space, disaggregating some sensor systems to improve their resiliency, 
and fielding larger constellations of smaller satellites to more 
frequently revisit and survey targets.
    A key metric for munitions in the past several decades has been the 
probability of kill, which was largely a function of precision. 
Confronting enemies possessing advanced air defenses, future munitions 
will need a higher probability of arrival at the target, which will be 
a function of their survivability and/or return to larger, massed raid 
salvos that can saturate enemy air defenses. New classes of weapons--
including cooperative weapons systems that can swarm targets, longer-
range air-to-air munitions that out-range those of enemy fighters, 
survivable standoff nuclear and conventional cruise missiles, 
hypersonic weapons, and high-power microwave cruise missiles--will be 
needed to strengthen the effectiveness of the global surveillance and 
strike component of the force.
    As Russia, China and Iran seek to circumvent or avoid traditional 
U.S. military conventional strength, they are turning increasingly to 
the use of Gray Zone active measures short of armed conflict, influence 
operations and covert action, propaganda and disinformation, as well as 
financial or economic warfare to achieve their own strategic aims. The 
United States will need to take account of such threats and devise both 
military and non-military means for deterring or defeating them. 
Special operations forces (SOF) will have a critical role to play. As 
they pivot from the counter-terrorism missions of the past decade, SOF 
will need to expand their capacity for special warfare missions 
including unconventional warfare, foreign internal defense, 
psychological warfare, and train/advise/assist.
    Renewed great power rivalries--alongside continued global Jihadism 
and the disintegration of the Middle East--also suggest that strategic 
competitions will be highly protracted in character. And in the remote 
case of potential conflict with China, the possibility that combat that 
could stretch for many months or years means that we must have: (1) far 
deeper munitions magazines at the ready long before war begins; (2) a 
greater margin for attrition in our land, air, and naval combat systems 
than we have since the end of the Cold War; (3) far more robust combat 
logistics forces capable to sustaining our forces under attack for many 
months; and (4) well-defended, ``warm'' production lines for weapons 
systems in our defense industrial base. In particular, stockpiling 
munitions and conducting exercises that demonstrate American 
preparedness for protracted warfare may strengthen deterrence by 
reducing an adversary's calculation that it could win quickly or at low 
cost.
    Finally, the range of potential strategic attacks that could be 
conducted against the U.S. homeland, its space constellation, or its 
undersea infrastructure, particularly through the increasing employment 
of cyber or electro-magnetic attacks, is increasing. Major strategic 
challengers all have at least some capability to affect U.S. homeland 
security. Russia and China, in particular, are pursuing capabilities in 
less mature domains like cyber, the electro-magnetic spectrum, space 
and undersea. To address these threats, the United States will need to 
reshape its forces to ensure a range of new defensive and offensive 
measures. The Department of Defense should ensure, above all, that its 
nuclear command, control and communications are safeguarded during 
peacetime, crisis or war and that the credibility of America's most 
devastating military response options are beyond question. The Pentagon 
will also have to consider how to conduct new missions, such as the 
defense of its undersea infrastructure or the protection of its land-
based space launch and ground segment infrastructure as it reshapes the 
U.S. military.
                               conclusion
    Reshaping the U.S. military should be treated as an urgent matter. 
Increasing the size of our legacy force--even at the highest state of 
readiness--will simply be inadequate to meet the military challenges we 
face across Europe, Asia and the Middle East, and will squander 
previous resources in the process. Now is the time to make the 
transition and begin to reshape a portion of our military so that we 
can effectively deter or prevail across a range of competitions and 
conflicts over the next several decades.

    Chairman McCain. Mr. Donnelly?

    STATEMENT OF THOMAS M. DONNELLY, RESIDENT FELLOW AND CO-
   DIRECTOR OF THE MARILYN WARE CENTER FOR SECURITY STUDIES, 
    AMERICAN ENTERPRISE INSTITUTE FOR PUBLIC POLICY RESEARCH

    Mr. Donnelly. Thank you, Mr. Chairman, and to the rest of 
the members of the committee for the opportunity share my 
thoughts with you.
    My role here is a little bit to be troglodyte knuckle-
dragger, and I am happy to play that part. I do not really know 
any other, so I am going to focus less on technological 
capabilities, although when photon torpedoes are invented, I 
hope we are the first people to field them.
    I think also that I have a certain sense of deja vu, going 
back to the end of the Cold War, in that our failure is less 
that we have not adequately responded to the technological 
tactical or operational challenges that we face, but that we 
have sort of failed to define our strategic purposes in the 
world, although Jim Thomas? testimony began to, I think, head 
in the right direction.
    We have certainly behaved since 1945 as though our 
principal strategic interest was the balance of power across 
Eurasia, a favorable balance of power in those three theaters 
that Jim talked about.
    However, we have fallen into the habit of defining wars by 
types rather than by particulars, by the location, by the 
adversaries, and again by our own definition of what success 
would be. Especially lately, we have gotten into the habit of 
substituting the idea of strategic agility for strategic 
sustainment. In other words, we have withdrawn from the posture 
that we had through the end of the Cold War, beginning with the 
withdrawal from the Philippines in the late 1980s, almost 30 
years ago, and the process more or less has continued 
uninterrupted since then.
    What we see today is less the development of stunning new 
capabilities on the part of our adversaries and potential 
adversaries, but the fact that they can operate without coming 
into contact with U.S. Forces. To put it simply enough, when we 
are not there, the ``axis of weevils,'' as Walter Russell Mead 
has called them, burrow into the woodwork and make a lot of 
mischief.
    Finally, my testimony as written is shaped by a sense of 
urgency about this. The United States has thought that we have 
been in a strategic pause since the end of the Cold War, and 
now we see what the results of that attitude have led to.
    Therefore, I am more interested in figuring out what we can 
do in the near term with the forces we have to reverse the 
geopolitical tide that seems so desperate just from reading the 
headlines every day. I have four suggestions, things that can 
be invested in within not only this fiscal year but over the 
course of a future years defense budget and can return 
significant benefits within the period.
    First of all, forward-positioning forces is the single most 
important reform that we could make. Again, not being there is 
a recipe for mischief, and the actions especially of the 
Russians and the Chinese reflect an absence of American 
presence much more than their own really innovative 
capabilities. They are using technologies that we invented or 
others invented 20 years ago, but simply using them against 
less capable people who are our allies and our friends but 
without the backstop of American forces.
    Secondly, we could get a lot more from the force that we 
already have by fully funding readiness accounts. We just 
recently did a series of naval deployment games in addition to 
quantifying what the difference of forward-basing would be. It 
is also pretty clear that we could improve our readiness 
models. Since the end of the Cold War, we have gotten into a 
rotation model of readiness. The consequence is, particularly 
when forces return from the deployment, they almost immediately 
begin to degrade at a precipitant rate. They are not really 
available to be redeployed. The investments that we have made, 
both in readying them in the first place and then deploying 
them, dissipate remarkably quickly.
    My final two recommendations are basically subsets of the 
readiness one. Again, one of my recent projects has been to 
understand how the next brigade that will deploy the European 
Readiness Initiative that is based at Fort Riley in Kansas is 
preparing itself for that rotation.
    Putting it simply, the biggest problem they have is 
personnel readiness. Because the force is too small, they are 
unable to sustain small unit or large unit cohesion over the 
course of time. It is often the case that, again, even sort of 
at the company level and below and even at the crew level and 
below, cohesion and teamwork get broken up incredibly rapidly, 
the result being that even at the small unit level, infantry 
company commanders will only have, say, a quarter to a third of 
their Bradley systems fully manned and mobilized, and they will 
not have any dismounts whatsoever across the company.
    Related to this is the dangerously low level of munitions 
stocks. Tomahawk cruise missiles are probably the paradigmatic 
example of this. These get cross-leveled. As ships come, the 
ships go into repair, but the missiles go into other ships, 
which are going back out to sea. That is just simply, again, an 
example of the kinds of things that are being done simply to 
sustain day-in/day-out patrolling and presence even at the 
diminished rate we are at.
    I think there are things that can be done in the near term 
while we are waiting to field new and more capable and more 
technologically advanced systems, but we still have a lot of 
capability left within the force that we have. If we use it 
more efficiently, more effectively, and fully fund-- make sure 
that the platforms that we have were completely up to speed, we 
could get a lot more mileage out of the old jalopy that we have 
got.
    Thank you.
    [The prepared statement of Mr. Donnelly follows:]

                 Prepared Statement by Thomas Donnelly
          making sense of america's balance-of-power interests
    The post-Cold War era has been a confounding period for the United 
States military and for the country as a whole. The collapse of the 
Soviet empire, an entirely unforeseen event, seemed at first to create 
a ``unipolar moment,'' a self-sustaining Pax Americana. This ``end'' to 
history begat a holiday from history. Now history is having its 
revenge. The impulse to ``make America great again'' is a reflection of 
our anxieties as much as our aspirations.
    These varying assessments of our geopolitical power directly 
reflect attitudes about the strength of the military; ``unipolarity'' 
was grounded in the primacy of United States military forces 
demonstrated in the 1991 Persian Gulf War, and our current feeling of 
decline stems from the frustrations of the Iraq and Afghanistan 
conflicts. As President Trump put it: ``We don't win wars, we just 
fight, we just fight. It's like . . . you're vomiting: just fight, 
fight, fight.''
    Having struggled with the costs--in blood, in treasure, and in 
domestic political support and leadership attention--of these long-
running irregular contests, we now find ourselves also facing deficits 
in the conventional realm, which we have so long taken for granted. The 
Joint Chiefs of Staff fret over China's ability to target our surface 
Navy, over the range advantages of the Russian Army's artillery, and 
over the difficulty our aircraft face in penetrating modern air 
defenses everywhere. These are real and growing concerns.
    However, my greatest fear stems less from our ability to meet the 
technological, tactical, or operational challenges of the times but 
from three more fundamental but repeated failures of the last 
generation. First, the reluctance of political leaders to define their 
purposes in traditional geopolitical terms; second, the U.S. defense 
community's propensity to define wars as types--``great-power 
conventional conflict,'' for example--rather than in particular--
``deterring Russian aggression and influence in Eastern Europe;'' and 
third, the faith in ``strategic agility'' in place of strategic 
persistence. To prevail over our most threatening competitors, we must 
define victory, be attuned to the particular strategic circumstances 
that define the contest, and ready ourselves for the long haul.
                     the purpose of american power
    Defining victory demands clear-eyed self-knowledge, something that 
is often difficult for Americans trained to look to the future and 
dismiss the past. But the roots of American strategy-making predate our 
republic. Since the mid-16th century, English-speaking peoples have 
sought to defend the ``liberties'' of the international system against 
the prospect of a ``Universal Monarchy,'' that is, the would-be 
hegemons of Eurasia: the houses of Hapsburg and Bourbon, German 
``Reichs,'' Russian and Soviet tsars, and Japan's emperors. In the 20th 
century, the standard in this struggle to preserve a favorable great-
power balance passed from Great Britain to the United States. Even as 
we have imagined ourselves as benevolent, commercial, maritime 
``offshore balancers,'' our actions have betrayed our rhetoric: the 
Eurasian great-power balance has been our principal geostrategic 
concern.
    The logic in these deeply ingrained habits of strategy is powerful. 
As John Donne, as deep a politician as he was a poet, wrote:

              No man is an island entire of itself;
              every man is a piece of the continent, a part of the 
main;

    This is to say that our ``exceptional'' experiment in self-
government is inseparable from the nature of government elsewhere in 
the world and in particular in those parts of Eurasia where power, 
wealth, and great geopolitical ambitions lie. The bell tolls for us in 
2017 as it did for Donne in 1624; the Stuart regime's attempts to 
absent itself through the 17th century from the continent's great-power 
conflicts, the Thirty Years' War and the wars of Louis XIV, twice cost 
them their crowns and lost Charles I his head on the chopping block. 
Any government in Washington that similarly fails to secure Eurasia's 
``liberties'' against the assaults of 21st-century absolutists will 
lose not only international respect but also domestic legitimacy.
    What does it mean to be ``a part of the main'' today? It means we 
must formulate an effective response to the challenge that China, 
Russia, and Iran pose to the balance of power across Eurasia. Walter 
Russell Mead has dubbed this trio the ``Axis of Weevils,'' a phrase as 
apt as it is clever. The first order of business for China, Russia, and 
Iran is to undermine the American global order. Each pursues military 
designs meant to confound United States influence in their ``near 
abroad'' and then establish regional spheres of influence. Even their 
principal ``strategic'' systems--their nuclear weaponry--are intended 
as a deterrent. None of these three powers is a proximate challenge to 
or substitute for U.S. primacy on the global commons of the seas, the 
skies, in space, or in cyberspace. Thus the Weevils' principal 
investments have been in ``anti-access'' and ``area-denial'' forces and 
systems, although more recently these have been balanced with a growing 
capacity for power projection; having had substantial local successes 
in rolling back the tide of the United States and its allies, the 
Weevils are increasingly leaning forward.
    It will be very difficult to make the military changes necessary 
until we can be clear and precise about the geopolitical outcome we 
wish to achieve. ``Everything in war is simple,'' wrote Clausewitz, 
``but the simplest things are difficult.'' Over the past generation, 
American military planners have suffered from a great deal of self-
induced ``friction'' stemming not from our inability to understand our 
enemies but from our inability to understand ourselves.
                wars in particular versus war in general
    One of the distinguishing and consistent features of the many U.S. 
defense reviews conducted since the end of the Cold War has been a 
desire to define wars by type rather than in particular. This began 
with the 1993 Bottom-Up Review (BUR), which measured the requirements 
of the post-Cold War armed forces by their ability to conduct two 
``major regional conflicts'' at the same time. Although the review 
rested, at least in part, on detailed analyses of the Gulf War and 
studies of what a renewed conflict on the Korean peninsula might be 
like, the purpose of the effort was to distill various common 
``phases'' of generic military ``campaigns'' that would be ``employed'' 
in a contest against ``Country X.'' The universal model clearly was 
derived from the Gulf War experience; the four phases of any campaign 
would be to ``halt the invasion,'' then ``build up U.S. combat power in 
the theater while reducing the enemy's,'' culminating in a ``decisive 
defeat [of] the enemy,'' and ``providing for post-war stability.'' With 
some recent modifications and much debate about ``Phase Zero 
operations,'' this basic structure remains more or less intact as the 
American model of campaigning.
    The review also acknowledged that the United States might employ 
military power in other ways and for other missions--for ``smaller-
scale conflicts or crises'' of short duration, ``overseas presence'' 
patrols, and deterrence, both nuclear and for other ``weapons of mass 
destruction.'' However, these were assessed as ``lesser, included 
cases'' for force-sizing, posturing and defense budgeting purposes in 
the belief that a military capable of fighting two nearly-simultaneous 
regional conflicts could handle anything else that might come its way.
    Two final distinguishing features of the Bottom-Up Review were that 
it took the post-Cold War to be a ``new era,'' defined not by the 
enduring interests of the United States but by the collapse of the 
Soviet Union and, relatedly, that it looked warily outward for signs of 
new threats rather than new opportunities to secure interests.
    In these significant ways--seeking a typology of possible conflict, 
placing faith in the unprecedented novelty of international 
competition, and measuring the challenge by dangers rather than 
enduring geopolitical goals--subsequent Quadrennial Defense Reviews and 
other official studies have been, essentially, footnotes to the BUR.
    This method has had a powerful grip on American defense planning. 
However, it ought to be plain by now that it has been powerfully 
problematic. That is not because its analyses have failed to predict 
events accurately or that they were insufficiently detailed; the reams 
of possible-future studies produced across the U.S. intelligence 
community and the detailed campaign modeling churned out by the 
Pentagon and federally-funded think-tanks represent immense effort. But 
this approach has deprived our adversaries of their particular 
qualities, strengths, and weaknesses. In a profound way, we've been 
looking through the wrong end of the telescope to define the many 
things that might lead to defeat rather than to chart a path to 
victory.
    If the United States is to respond successfully to the emerging 
challenges to its Eurasian interests, it must first define what 
constitutes success in the three principal arenas of competition. In 
Europe and East Asia, for all the troubles of recent decades, a 
favorable overall balance of power persists: our alliances are 
fundamentally sound, our force presence remains and could be augmented, 
and our ability to project additional force is considerable. 
Deterrence--a relatively low-cost strategy--is a practicable posture. 
Alas, and particularly with the precipitate reduction in presence of 
recent years, there is no stable ``status quo'' to preserve in the 
Middle East; the weevils are on the loose and eating everything in 
sight. To achieve our traditional strategic aims, it will be necessary 
to compel change, to reverse the course of current events.
                        showing up is 80 percent
    One of Woody Allen's most famous quips was that ``eighty percent of 
success is just showing up.'' The same applies to sustaining the life 
of the liberal international order. When the United States doesn't show 
up or goes home, things begin to unravel.
    Alas, U.S. military presence in critical regions is, increasingly, 
American absence. Beginning with the withdrawal from the Philippines in 
the early 1990s, the global ``footprint'' of United States Forces has 
been steadily shrinking. Perversely, we have come to imagine this as a 
virtue: the model of ``campaigning'' enshrined in the Bottom-Up Review 
was one that emphasized rapid response rather than continuous presence. 
In contrast to the patrol-the-frontiers-of-freedom approach of the Cold 
War--even, as in West Berlin, where the tactical situation was all but 
untenable--U.S. Armed Forces have increasingly withdrawn from forward 
garrisons and sought ``strategic'' deployments from bases in the 
continental United States. This approach has had mounting consequences: 
rather than being in position to check rising revisionists, we have 
ceded them the initiative and, with diminished overall forces, been 
slow to respond and lacking in the capacity to tend to multiple 
contingencies.
    Belatedly, the Obama Administration appeared to recognize this. The 
European Reassurance Initiative, one would hope, represents a form of 
repentance for and reversal of the drawdown that has opened an 
opportunity to Vladimir Putin to begin to overturn the result of the 
Cold War. But rotational forces--not only American troops but also 
those of NATO allies in the Baltic States--cannot supply the day-in, 
day-out deterrence that the alliance's exposed eastern flank demands. 
Further, current plans do little to cover alliance commitments in 
southeastern Europe, where Russian bribery and ``political warfare'' 
have helped to bring truculent and nationalist leaders and parties to 
the fore.
    The situation in the South China Sea is similar. In the face of the 
administration's much-protested ``Pacific Pivot,'' Chinese irregular 
and, increasingly, regular forces have dredged their way across the 
sea, island-making rather than island-hopping. Not only have we 
withdrawn from the business of long-term basing, but an overstretched 
Navy--whose principal task has been to maintain a robust presence in 
the Persian Gulf and Arabian Sea to offset the lack of land-based 
forces--also lacks the assets to interpose itself between China and the 
ASEAN states it tries to intimidate. Philippine President Rodrigo 
Duterte is a mercurial man, but his periodic pronouncements about 
American weakness and Chinese strength reflect, at the least, the 
region's nightmares.
    Alongside these mounting worries in Europe and East Asia, the 
policy of ``ending'' America's wars in the Middle East has led to a 
precipitate collapse of what little order there was, although, in 
retrospect, the situation in 2009 stands as a high-water mark of 
American influence in the region, the very-hard earned result of 
efforts made not only since 2001 but since 1979 as well to stabilize an 
inherently volatile region. From a traditional American strategic 
perspective, the return of Russia and the ascent of Iran from the 
Levant to the Hindu Kush is a catastrophe of epochal proportions. 
Damascus, Baghdad, and Beirut, three of the great capitals of the Arab 
world, are essentially satrapies to Tehran. Iran's rise was aided 
immeasurably by Russia's willingness to deploy a few thousand troops 
and a few dozen aircraft; in the vacuum left by United States 
withdrawal, a little went a long way. The change has unnerved our 
remaining traditional allies and partners in Riyadh, Cairo, Tel Aviv, 
and, especially, Istanbul; if there is to be a near-term settlement to 
the horrific conflict in Syria, America will have little to say about 
it.
    As a post-script on presence, it is worth asking whether we have 
made the most of the promised partnership with India. This was 
supposedly a priority of both the second Bush and the Obama 
presidencies; the expectation that the Indian Ocean and the surrounding 
littoral might someday become a fourth critical Eurasian ``theater'' 
was sound, and it would only be prudent to anticipate such a 
development--if only because the Chinese are headed in that direction. 
Although this is more a failure-to-advance opportunity missed than a 
tangible retreat, the region's weight in the Eurasian balance of power 
can only increase.
                            recommendations
    What, then, is to be done?
    To begin with, the new administration ought to bring a greater 
sense of urgency to restoring a favorable Eurasian balance. It has been 
a commonplace argument that the post-Cold War period was not only a 
time of ``strategic pause'' but also an era of rapid technological 
change, and that the United States could afford and might even benefit 
from a time-out, awaiting developments and positioning itself as a 
``second mover.'' Even if that were once true, the contradictions of 
``leading from behind'' and superpower passivity have been increasingly 
apparent. Dreaming of a ``transformation'' of military forces or 
waiting further to ``offset'' adversaries initiatives is to reinforce 
geostrategic failure. Therefore we must work with what we have, 
immediately improve and increase what we can in the near-term, and 
selectively develop new capabilities that can be fielded within a 
foreseeable future. Photon torpedoes, warp drives, and cloaking devices 
would be cool; once they're invented, we should build them. In the 
meantime, we must:

    <bullet>  Forward-position forces. No other single defense reform 
would pay a bigger or more rapid return on defense investment than 
negotiating a return of forces based or home-ported closer to the zones 
of contention. Though this is an obvious measure of efficiency, it is 
even a greater measure of effectiveness in reassuring and mobilizing 
alliance partners. Advancing to patrol the new frontiers in Eastern 
Europe--the line from the Baltic to the Black Sea--and Southeast Asia 
is critical to reestablishing a credible deterrent. But the same is 
true in the Middle East, although the task will be much harder; we 
cannot expect to much influence, let alone reverse, the terrible trend 
of events from over the horizon or ``offshore.''
    <bullet>  Fully fund force readiness accounts. The force we now 
have could be made significantly more effective if a ``sustained 
readiness'' model were implemented to replace the ``just-in-time'' 
rotational model of the last 15 years. We have imagined that 
deployments can be made eternally predictable and created a system 
whereby units are brought to adequate levels of manning, equipment, and 
training just before they are sent into harm's way. Then, immediately 
on their return to home station--and mostly to save money--the people 
are dispersed to new assignments or schools, the equipment sent to the 
depot for ``reset,'' and tactical proficiency and teamwork thereby 
lost. No matter the emergency, within a matter of weeks it makes little 
sense to attempt to redeploy these forces; they've lost their edge.
    <bullet>  Increase personnel strength. The most crippling factor in 
force readiness is personnel instability and shortages. These factors 
are intertwined. The current personnel system was designed at the 
height of the Cold War, when deployments and missions were relatively 
constant, end-strength levels much higher, and service raise-train-and-
equip institutions much more robust. Over the course of an extended 
career, this system produced a force of incredible tactical 
competence--its ability simply to operate helped immeasurably to make 
up for the strategic errors of recent decades. Personnel reductions 
have diminished both unit stability and cohesion as well as the 
services' ability to produce the needed raw human and intellectual 
capital.
    <bullet>  Increase munitions stocks and spares. Material readiness 
and force deployment capacity are most limited by sparse stocks of 
precision-guided munitions--Tomahawk land-attack cruise missiles are 
the poster children for what is now a widespread dilemma--and spare 
parts--even the smallest units have taken to cannibalizing some systems 
to field others; there is hardly a hangar, a dock, or a motor pool in 
every service that does not have a ``cann bird'' or two.

    I will conclude my testimony here. I cannot convince myself that 
many other defense investments--with perhaps, the expansion of F-35 
purchases or deciding not to mothball modernized Ticonderoga-class 
cruisers--would have a substantial and timely effect upon the 
degenerating balance of power in the critical regions of Eurasia. The 
immediate need is for restored capacity, not innovative capabilities. 
The Weevils have gotten into the woodwork, and it's time to call the 
exterminator, not the architect.

    Chairman McCain. Mr. Clark?

 STATEMENT OF BRYAN CLARK, SENIOR FELLOW, CENTER FOR STRATEGIC 
                   AND BUDGETARY ASSESSMENTS

    Mr. Clark. Chairman McCain, Ranking Member Reed, and 
distinguished members of the committee, thanks for inviting us 
to testify on this important subject today. I am honored to be 
here with my colleagues and former bosses. Hopefully I do not 
embarrass them too much.
    I believe we all agree that we need to reshape and grow the 
military. One thing we will have to think about as we do that 
is the fact that it will take at least a decade for us to get 
down the road of building up a bigger fleet and a bigger Air 
Force and getting more ground forces and developing new 
capabilities.
    We already see that great powers like Russia and China are 
likely to be big players, and that is only going to get worse 
as we go a decade down the road. We are not going to be able to 
necessarily consider the Islamic State as the most important 
threat to deal with. Great powers in that time frame are likely 
to be the most important factor in our force planning.
    That has some significant implications for how we need to 
structure and posture the force in the future. In particular, 
the objectives of countries like China and Russia are 
relatively close at hand, when you think about Russia wanting 
to go into the Baltics potentially. They certainly have gone 
into Ukraine. Look at China looking at potentially trying to 
coerce Taiwan into submission or to attack the Senkakus and 
take them from Japan. Those are all objectives that can be 
gained within a very short period of time by those countries. 
The so-called anti-access/area denial capabilities or the long-
range missiles and surveillance systems they have would enable 
them to slow down a U.S. and allied response enough to where 
they could achieve those objectives and be done before we 
arrive. Now the United States and its allies look like the 
aggressor that is trying to change the status quo. When you 
think about what happened in Crimea, if we were to try to 
overturn the results of the Crimea invasion, we would look like 
we are trying to change the facts on the ground as opposed to 
coming to the aid of an ally or a partner.
    What that means is that in the future, we are not going to 
be able to take the same model we took with Iraq and 
Afghanistan where we let something happen, aggression occurs, 
bad things occur, we try to come back in after the fact and 
overturn that aggression and change the status quo maybe and 
change the regime of the adversary that started the aggression. 
We are going to have to prevent those things from happening in 
the first place, otherwise our alliances are going to begin to 
fray, our security assurances will not have the value that they 
need in order to sustain alliances that we rely on.
    We are going to have to think about deterring rather than 
trying to come in after the fact and overturn the results of 
aggression. That has some significant implications when you 
think about the capabilities of great powers like Russia and 
China. There are three main things that I would advocate that 
we really consider and take a hard look at, which my colleagues 
have talked about.
    First of all, a much more robust overseas presence or 
posture. Not just putting forces out there for the purpose of 
creating a faster response time, but putting forces out there 
for the purpose of denying or defeating aggression when it 
occurs. When you think about the Cold War, we were worried 
about Soviet forces coming across the Fulda Gap, coming into 
Japan across the Kamchatka Peninsula, relatively fast 
operations that required us to be there to be able to stop it 
rather than come in after the fact and try to recover. That is 
where we are going to have to go in the future, is manage that 
much more robust presence with greater forward-basing and 
forward-stationing of forces.
    But we are going to have to reshape the military to give it 
the capabilities to survive in these kinds of environments and 
conduct the offensive operations necessary to defeat aggression 
so we can demonstrate to adversaries that we are going to be 
able to stop them. That is the heart of deterrence really.
    I think growing the military to allow it to sustain this 
more robust overseas posture, while affording it sufficient 
time for training and maintenance between deployments--our 
readiness crisis of today is a function both of not putting 
enough money into readiness necessarily, but it is mostly a 
function of not having the time to do the training and 
maintenance between deployments because the force is not large 
enough for the demands we are placing on it today.
    Some specific things with regard to those three elements. 
In terms of posture, not just increasing the presence of forces 
but making sure they are tailored with the capabilities 
necessary to deal with the threats and opportunities of that 
environment. Today we deploy forces more or less on a one-size-
fits-all basis. It is the same kind of unit, whether it goes to 
Europe or it goes to Asia or it goes to the Middle East with 
some minor tailoring. We are going to have to re-equip those 
forces and they are going to be much different between regions 
because what Russia cares about in the Baltics is much 
different than what Russia might care about and be able to do 
in the Mediterranean, the same with China in the South China 
Sea versus the East China Sea. We need to think about tailoring 
the forces much more.
    Some of these changes will be counterintuitive to address 
the particular challenges that a great power might provide to 
us. For example, we might have to rely on naval forces to a 
greater degree in Europe to help address a Russian challenge in 
the face of NATO being unable to respond quickly and therefore 
NATO forces and our own ground forces in NATO not being able to 
respond to a Russian aggression in the Baltics.
    So really, ground forces in the Pacific might be necessary 
to be able to provide us the ability to hinder Chinese power 
projection beyond the first island chain of the Philippines and 
Japan.
    As Dave talked about, we need to improve our basing, but we 
also need to improve the ability of our bases to defend 
themselves, shifting to shorter- and medium-range air defenses 
like he discussed.
    The increased use of forward-stationing where we have 
equipment and ships or aircraft that remain forward and 
rotationally send crews out there to man them. That is a model 
that the Navy and other forces have used somewhat and we used a 
little bit in the Cold War, but it is a model that might enable 
us to more affordably increase the posture overseas without 
necessarily having to grow the number of people in the force 
dramatically.
    In terms of reshaping, we are going to have to think about 
making the force able to survive in these highly contested 
environments at the onset of conflict and do two main things: 
to deliver high-volume missile-based fires very quickly on 
short notice with very little warning. For example, you think 
about a Russian aggression in the Baltics. It could be done in 
2 or 3 days, so you got to be able to mount a very strong 
defense with something that is going to give you a lot of fire 
power very quickly. A lot of that is going to be missile-based, 
so you think about surface-to-surface missiles the Army has, 
missiles that the Navy and Air Force have. That is the kind of 
fire power that is going to be necessary for that very short 
period at the beginning of hostilities, followed by some 
moderate volume but sustained combat that might have to occur 
for a very long time in order to demonstrate to the adversary 
that the U.S. is able to carry on the fight for the long haul.
    We are going to need new operating concepts that allow the 
force to survive and conduct these kinds of high-volume initial 
and then moderate-volume follow-on operations. Increasing the 
capacity of air and missile defenses by shifting to shorter 
ranges and using capabilities like IFPC or other short-range 
air defenses, being much better at electronic and 
electromagnetic spectrum warfare, being able to find the enemy 
without ourselves being counter-detected, being able to deny 
the ability to communicate with themselves and conduct 
networked operations, and going back to some of the old Cold 
War techniques of concealment and cover and deception where we 
might have to rely on physical decoys to deal with the growing 
prevalence of electro-optical and infrared sensors, ground 
force multi-domain fires, like the Army is working on right 
now, to contribute to strike and anti-ship warfare from the 
ground, and then as you talked about, Mr. Chairman, undersea 
warfare. We are going to have to look at shifting to unmanned 
systems to carry a larger number of undersea missions as our 
own submarine force shrinks but also dealing with the fact that 
our adversaries are mounting more capable anti-submarine 
warfare efforts of their own.
    Reshaping the force is going to require reform in how we 
acquire military systems and how we build strategy to define 
the priorities for those systems.
    The last priority in terms of growing the military, again, 
we need to address the size of the military because of the 
current readiness shortfall, which is a symptom of not having 
sufficient forces to do training and maintenance between 
deployments.
    But growing the military is also going to require some 
changes and reform of the Department to eliminate excess 
organizations and excess personnel and infrastructure that 
currently are going to constrain the ability of the military to 
grow itself to the size needed to sustain its readiness.
    I think we can accomplish these changes over the next 
decade, but it is going to require a strategy and the 
leadership to follow it.
    I am looking forward to your questions, and thank you very 
much.
    [The prepared statement of Mr. Clark follows:]

                   Prepared Statement by Bryan Clark
    Chairman McCain, Ranking Member Reed, thank you for inviting me to 
testify today on this important and timely subject. The United States 
is at an inflection point in its national security. After enjoying 
almost three decades of military superiority, the United States now 
faces competitors with strategies and capabilities that could 
circumvent, undermine, or defeat the defense posture and forces of 
America and its allies. In some regions and mission areas, the U.S. 
Military is already behind those of its potential adversaries. If we 
fail to reshape our military and implement new ways to deter 
aggression, respond to provocation, suppress terrorism and insurgency, 
and protect the homeland, we risk the security assurances upon which 
our alliances are based and, with them, the security and economic 
health of the United States.
    I applaud Senator McCain's recent white paper, ``Sustaining 
American Power,'' which recognized the loss of U.S. Military overmatch. 
The paper's recommendations to rebuild U.S. Forces would significantly 
improve America's ability to counter the efforts of its competitors and 
adversaries.
                          emerging challenges
    The Department of Defense (DOD) describes five major adversaries it 
must address: China, Russia, Iran, North Korea, and violent Islamic 
extremists. \1\ Today, DOD's level of effort indicates it considers 
terrorism its most important challenge. Thousands of U.S. troops are 
fighting the Islamic State in Iraq and Syria; a carrier strike group 
and dozens of aircraft ashore are conducting air strikes against 
Islamic State and Al Qaeda targets; and U.S. strike and special 
operations have expanded into Somalia, Yemen, and Libya.
---------------------------------------------------------------------------
    \1\ Chairman of the U.S. Joint Chiefs of Staff, Military Strategy 
of the United States of America 2015, U.S. Department of Defense, 2015, 
p. 1-2, available at: http://www.jcs.mil/Portals/36/Documents/
Publications/2015--National--Military--Strategy.pdf.
---------------------------------------------------------------------------
    Although terrorism and violent extremism will continue to threaten 
the United States, the importance of challenges from great powers such 
as China and Russia will likely increase over the next decade as they 
further modernize their militaries. Of greatest concern, both countries 
now deploy networks of long-range sensors and precision weapons able to 
threaten military forces in the air, on the sea, or on the ground 
hundreds of miles from their territory. These networks could enable 
Russia or China to delay or prevent intervention by the United States 
and its allies long enough to conduct a rapid attack or invasion 
against nearby targets like Taiwan for China or the Baltic states for 
Russia. After such an act of great power aggression, the United States 
and other allies will need to either accept the result and subsequent 
collapse of American security alliances or counterattack and risk 
triggering a great power conflict that could have potentially 
catastrophic consequences.
    The sophisticated capabilities being fielded by Russia and China 
are also proliferating to regional powers such as Iran and North Korea, 
giving them the ability to threaten their neighbors and delay 
intervention by U.S. forces. Moreover, these adversaries can exploit 
geographic advantages, such as Iran's proximity to the Strait of Hormuz 
and North Korea's location near Japan and China, to quickly conduct an 
attack that could greatly impact the global economy and lives of 
millions of people.
                       return to an old strategy
    During the Cold War, America and its allies deterred Soviet 
aggression by posturing conventional forces where they could defeat or 
delay a Soviet offensive and relying on nuclear weapons as a backstop 
in the event conventional forces failed. Since the Cold War, however, 
America's approach to aggression has been to mount a response after the 
fact, such as in Iraq, Afghanistan, or Kosovo. Conventional deterrence 
was achieved by the presence of some U.S. forces in the region that 
would signal America's resolve and act as the leading edge of an 
eventual counterattack.
    The mere presence of United States Forces and the threat of 
response were enough to deter aggression by regional powers such as 
Iran or North Korea, who did not yet have the capabilities to rapidly 
achieve their objectives or to defend themselves from eventual U.S. and 
allied retaliation. This approach won't be enough in the future to 
deter great powers such as China and Russia or regional powers with 
improved defensive capabilities. Moreover, because the targets of their 
aggression are close and achievable within days, U.S. attempts to 
reverse the results of the aggression after the fact-as the United 
States and its allies did in the first Gulf War-could potentially place 
America in the position of being the aggressor.
    Nuclear deterrence may also be less useful in these scenarios than 
during the Cold War. Aggression by Russia against border regions of 
NATO allies in Eastern Europe or by China against Japan's Senkaku 
Islands may not be perceived as existential threats that warrant a 
United States nuclear response. United States threats to use nuclear 
weapons in those cases may not be credible to Russian or Chinese 
leaders.
    Instead of simply threatening to respond to aggression after the 
fact, the United States will need to deter an attack before it occurs 
or defeat it promptly using conventional military forces. U.S. and 
allied intervention that delays aggression may also be successful at 
eventually stopping aggression if it enables the economic and 
diplomatic costs of the aggression to mount to unacceptable levels. As 
in the Cold War, this approach will require forces and capabilities in 
proximity to the aggressor's territory or objectives so they can 
interdict an offensive or punish the aggressor by promptly attacking 
targets of value to compel the aggression to stop.
    American military forces will need to adopt a new posture that 
places them near potential adversaries and their targets--areas that 
are likely to be highly contested in wartime by the long-range 
surveillance and weapons systems these countries have been putting in 
place over the last two decades. Deterrence will, therefore, rely on 
new operational concepts and capabilities that enable ships, aircraft, 
ground units, and their bases to survive and conduct offensive 
operations in these highly-contested areas long enough for them to stop 
aggression and punish the aggressor. These operational concepts and 
capabilities should be the focus of efforts to reshape the U.S. 
military over the next decade.
                        new operational concepts
    New technologies could improve the lethality of U.S. Forces and 
their ability to defend themselves in highly contested areas. But 
technologies alone will not enable U.S. Forces to deter, deny, or delay 
aggression, or operate effectively in range of long-range enemy 
weapons. New technologies must be incorporated into operational 
concepts for U.S. Forces to integrate new and existing systems and 
fully exploit the new capabilities technology can bring.
    The improvement and proliferation of adversary military systems and 
new technologies for precision weapons, sensors, and autonomy are 
prompting a series of shifts in warfare that should be reflected by new 
U.S. operational concepts. DOD is beginning to pursue some of these 
concepts and supporting technologies, but slowly and only by small 
portions of the force. They will need to be incorporated more broadly 
across the U.S. Military to enable it to compete effectively with the 
militaries of other great powers and regional adversaries. The most 
important areas for DOD to address in reshaping the force are air and 
missile defense, electromagnetic spectrum (EMS) warfare, strike and 
surface warfare, land warfare, and undersea warfare.
Air and Missile Defense
    Air and missile defense is arguably the most important area for new 
operational concepts. Each of the most important adversaries identified 
by DOD relies to a large degree on precision-guided weapons to level 
the playing field between their relatively less proficient forces and 
highly-trained and prepared U.S. operators. In some cases, these 
competitors have built up large inventories of precision-guided 
missiles and rockets that could overwhelm the current defenses used by 
U.S. Forces, which mostly rely on expensive interceptor missiles to 
physically destroy incoming weapons.
    New directed energy technologies could significantly increase the 
air defense capacity of U.S. Forces. Lasers can damage the external 
structure or seeker of an incoming missile and high-power 
radiofrequency (RF) transmitters can damage its internal electronics; 
because they use energy instead of physical interceptors, their 
capacity is only constrained by electrical power and cooling. Both 
technologies are now mature enough to be incorporated into U.S. Forces.
    Directed energy weapons will not always work against all threats, 
however. Some missiles have hardened shells that can resist lasers or 
lack apertures for high-power RF signals to penetrate. ``Hard-kill'' 
weapons that physically destroy missiles will still be needed in those 
cases. Hypervelocity projectiles that travel at Mach 5 or greater could 
enable today's naval or ground artillery to damage or destroy attacking 
missiles, creating more air defense capacity. And new shorter-range 
interceptors such as the Army's LowerAD and AIM-9X used by the Indirect 
Fires Protection Capability (IFPC) launcher or the Navy's Rolling 
Airframe Missile (RAM) and Evolved Sea Sparrow Missile (ESSM) can be 
less expensive and smaller than most current interceptors, enabling 
more to be carried in weapons magazines.
    New energy weapons and interceptors, however, engage incoming 
missiles at 10-30 miles away, compared to larger and more expensive 
interceptors-such as Patriot Advanced Capability (PAC)-2, Terminal High 
Altitude Area Defense (THAAD), or the Navy's Standard Missiles-that can 
engage threats more than 100 miles away. U.S. Forces will need to adopt 
new operational concepts that engage air threats closer to the defended 
target to increase their capacity and enable them to shift to energy-
based defenses with virtually infinite magazines.
    Although new air defenses will not make U.S. Forces impervious to 
attack, they will increase the number of weapons an adversary will need 
to launch at ships, bases, or ground units to defeat them. If combined 
with new concepts for distributed operations and EMS warfare, improved 
air defense capacity could make individual targets too costly to defeat 
in detail.
EMS Warfare
    Despite increases in air defense capacity, an enemy near his own 
territory may still be able to concentrate fires and overwhelm U.S. 
ships, aircraft, and ground units. Conducting large attacks, however, 
requires detecting and tracking the target to ensure it can be 
classified and its location determined with sufficient precision for 
the weapons to be used. Most sensors, except for undersea, rely on EMS-
based technologies such as radar or passive signal reception.
    U.S. Forces can confuse or deceive these sensors using new 
operational concepts and technologies for EMS warfare. U.S. Forces will 
need to improve their ability to jam and confuse active EMS sensors 
like radar by exploiting advances in cognitive and autonomous 
electronic warfare such as in the DARPA Adaptive Radar Countermeasures 
(ARC) program. These systems go beyond today's jammers that use pre-
planned techniques against recognized threat radars and instead develop 
new techniques that they employ iteratively against signals they may 
not be able to recognize, but whose characteristics can be classified 
as potential threats. To fully exploit the capability of new electronic 
warfare systems, U.S. operational concepts should employ large numbers 
of jammers and decoys like the Air Force's Miniature Air-Launched Decoy 
(MALD) across a force, networked together to create a false target 
picture in the EMS, as in the Office of Naval Research's Multi-Element 
Signatures Against Integrated Sensors (NEMESIS) program.
    Passive sensors are an even greater challenge for U.S. Forces. They 
are hard to find and an adversary on its own territory can deploy large 
numbers of them with overlapping fields of view to improve their 
accuracy and range. An enemy can be expected to employ passive sensors 
to target U.S. radars and radios and attempt to jam them. To counter 
these efforts, new U.S. EMS warfare concepts will need to move away 
from relying on high-power active radars like the SPY-1 on Aegis ships 
or the APY-2 on Airborne Early Warning and Control (AWAC) aircraft.
    Instead of active radars, U.S. Forces will need to rely on passive 
and low probability of interception or detection (LPI/LPD) sensors and 
communications that can circumvent enemy jamming. DOD is developing 
technologies to support these concepts, like new passive RF receivers 
in the E/A-18G Growler or F-35 Lightning II aircraft and communication 
systems such as the DARPA Collaborative Operations in Denied 
Environment (CODE) or Communications in Extreme Environments (COMMEx) 
programs.
    Where DOD will need to make the most improvement, however, is in 
countering electro-optical (EO) and infrared (IR) sensors, which rely 
on the visual or heat signature of targets and therefore cannot be 
defeated simply by turning off radars and radios. Commercial EO/IR 
satellite imagery providers such as BlackSky and Planet Labs are 
proliferating while China and other countries are expanding their own 
government EO/IR satellite constellations.
    U.S. operational concepts will need to return to old counter-
surveillance approaches using obscurants, physical decoys, and 
camouflage to prevent classification and tracking by these sensors. 
Although they have improved dramatically in recent years, obscurants, 
decoys, and camouflage do not need to be perfect. They only need to 
make real targets and decoys indistinguishable from one another. An 
adversary must then decide whether to use enough weapons to destroy 
both potential targets, which further increases the number of weapons 
required, or risk choosing the wrong one.
Strike and Surface Warfare
    In addition to simply surviving in a contested area, to deter, 
defeat, or delay aggression U.S. Forces must be able to attack the 
enemy at sea and on the ground. New concepts for EMS Warfare will 
improve the ability of U.S. Forces to find and target the enemy while 
themselves not being effectively tracked. They must then exploit their 
targeting by conducting attacks rapidly and with sufficient capacity to 
overcome enemy air and missile defenses.
    Like the United States, potential adversaries like China and Russia 
have been improving their defensive capacity in an effort to make 
attacks too costly except against the most important targets. U.S. 
Forces can gain an advantage in this ``salvo competition'' by 
increasing the size and survivability of their attack salvos. This 
requires using smaller strike weapons that can be carried in larger 
numbers by strike platforms and developing operational concepts or 
weapon features that improve their ability to evade defenses.
    To exploit fleeting target information from passive and LPI/LPD 
sensors, U.S. Forces will need standoff missiles that can quickly 
engage targets throughout the sensor's field of view. Weapons platforms 
also should be distributed to increase the number of individual targets 
an enemy must attack and thus the number of weapons it will need to use 
to defeat U.S. Forces. Both these factors argue for long-range standoff 
weapons. Weapon range, however, will need to be balanced with weapon 
size because longer-range weapons are larger and reduce the number that 
can be carried in a ship, aircraft, or ground launcher. Previous CSBA 
studies found that strike weapons with ranges of 100-500 miles have 
enough standoff range to protect the launcher from counterattack and 
are small enough to fit on most air, ship, or ground launchers.
    DOD's current weapons portfolio, unfortunately, consists almost 
entirely of direct attack weapons with less than 100 nm range that are 
useful in the permissive air environments of Iraq and Afghanistan. It 
has a small percentage of longer-range weapons, but they are generally 
too expensive to buy and employ in large salvos. DOD should accelerate 
development of less expensive weapons with ranges between 100 and 500 
miles, such as the rocket-propelled Joint Standoff Attack Weapon (JSOW) 
and powered variants of the Small Diameter Bomb (SDB).
    To improve weapons survivability, U.S. Forces can adopt new 
operational concepts that incorporate jammers or decoys into weapons 
themselves, or into missiles like the MALD that would fly with weapons 
salvos to the target. The DOD can also employ weapons such as 
hypersonic missiles that can fly at more than Mach 5 and are very 
difficult for air defense systems to detect and engage. Hypersonic 
weapons are in development under several programs and could include 
air-launched variants similar in cost to existing missiles like the 
Joint Air-to-Surface Standoff Missile (JASSM).
Land Warfare
    Ground operations are likely to become increasingly specialized as 
adversaries grow more sophisticated and better able to exploit their 
local environments. In Eastern Europe, U.S. Forces must survive and 
conduct combined--arms combat against a multi-dimensional Russian force 
that, although relatively small, is more capable and adapted to that 
environment than are U.S. Forces. In the Middle East, ground units will 
continue to encounter irregular terrorist and insurgent forces that 
will require highly coordinated intelligence and special operations to 
address. And in the Pacific, long-range sensor and weapon networks and 
the archipelagic geography will place a premium on operations combining 
ground-based air defenses, surface-to-surface fires, and EMS Warfare 
capabilities.
    After more than a decade focused on stabilization and counter-
insurgency operations, the Army and Marine Corps are not prepared for 
these challenging scenarios. Even in the Middle East, U.S. ground 
forces will need to address improving threats from precision weapons, 
electronic warfare systems, and sensors. They will need to develop new 
operating concepts and capabilities, especially for EMS Warfare and 
surface-to-air and surface-to-surface fires.
    To improve their survivability against enemies with improved 
sensors and precision weapons, ground forces will need to use more 
distributed formations and employ new operational concepts, as 
described above, for EMS Warfare and air defense. They will need to 
invest in more air defense systems like the IFPC, so each deployed unit 
can be equipped with them. The Army and Marine Corps will also need to 
field multi-function EMS warfare systems, including unmanned air and 
ground vehicles, to passively detect and track enemy transmissions, jam 
enemy radios and radars, and enable secure communications.
    In addition to protecting maneuver forces on the ground, air 
defense and EMS warfare concepts and capabilities can also be used by 
ground forces to threaten enemy aircraft attempting to pass overhead. 
Similarly, ground-based surface-to-surface missile launchers such as 
the high-mobility artillery rocket system (HIMARS) could carry anti-
ship versions of missiles like the MGM-140 Army Tactical Missile System 
(ATacMS) or M-31 Guided Multiple Rocket Launch System (GMLRS). 
Together, these capabilities could enable concepts that turn the 
``First Island Chain'' of Japan, Taiwan, and the Philippines into a 
barrier to hinder the projection of Chinese forces into the open ocean.
    More distributed ground forces will need new approaches and systems 
for logistics and sustainment. Current Army and Marine Corps logistics 
capabilities are designed for more concentrated formations such as 
Brigade Combat Teams or Marine Expeditionary Units. They may not be 
able to support highly distributed formations down to the company level 
scattered across islands or in rough terrain and using large numbers of 
missiles and fuel for radars and EMS warfare systems. Unmanned vehicles 
like the Marine's K-Max aircraft or Army ``Big Dog'' ground vehicle may 
be needed to sustain forces in the field.
Undersea Warfare
    As potential adversaries improved their ability to threaten U.S. 
ships, aircraft and ground units, the United States increased its 
reliance on submarines for surveillance, strike, and anti-ship 
operations near their coasts in wartime. This, in turn, is leading 
potential adversaries, particularly China, to deploy seabed sonar 
arrays and larger numbers of maritime patrol aircraft to challenge U.S. 
access undersea.
    As undersea areas forward become more contested, the U.S. Navy 
should shift to using more unmanned vehicles and systems for 
surveillance missions currently conducted by submarines. Unmanned 
systems will likely also be able to conduct offensive operations such 
as mining, attacks on enemy warships, and strike missions. At the same 
time, submarines will need to move from being front-line tactical 
platforms, like fighter aircraft, to being operational-level command 
and control platforms, like aircraft carriers.
    Against the growing number and capability of Russian and Chinese 
submarines, U.S. naval forces will not be able to continue today's 
anti-submarine warfare (ASW) approach that would track and try to 
destroy every enemy submarine. This effort would require time and 
platforms that are needed to counter adversary aggression. Instead, the 
United States should focus on suppressing, rather than destroying, 
enemy submarines. Using overt sensors like sonar and radar and 
harassing attacks, U.S. Forces could exploit the inherent limitations 
of submarines: They are relatively slow, especially when trying to 
remain stealthy; they have little self-defense capability; and have 
much less situational awareness than surface or air platforms. When 
attacked or counter-detected a submarine is therefore likely to evade, 
rather than standing and fighting as a surface warship might.
    U.S. naval forces can best support these new ASW concepts by 
fielding active sensors such as low-frequency variable-depth sonars and 
periscope detection radars and inexpensive weapons such as the Compact 
Very Lightweight Torpedo (CVWLT). To cover large areas and reduce the 
vulnerability of manned platforms to counterattack, these sensors and 
weapons should be deployed by unmanned surface, undersea, and air 
vehicles. Further, combinations of active and passive sensors could be 
used by unmanned vehicles to conduct multistatic surveillance and 
targeting operations.
                 the importance of posture and capacity
    New technologies and operational concepts can only help deter, 
defeat, or delay aggression if U.S. Forces are positioned where they 
can use their new capabilities to interdict an enemy offensive. Russia 
could invade the Baltic States and China could devastate Taiwan before 
American forces coming from the continental United States or another 
theater would be able to intervene. Scenarios involving regional powers 
such as Iran closing the Strait of Hormuz or North Korea attacking 
South Korea similarly require a local response.
    The United States must return to the more robust military posture 
that defined its Cold War-era force. Forward-based forces will need to 
be increased and joined by larger numbers of rotationally-deployed 
units from the United States, as well as forward stationed ships, 
aircraft, and equipment with rotational crews that deploy from the 
United States.
    U.S. military posture will also need to be more tailored to enable 
new operating concepts and address the threats, adversaries, and 
opportunities present in each region. For example, the form aggression 
from Russia might take will be different in Eastern Europe compared to 
the Mediterranean; protecting objectives of Chinese aggression in the 
East China Sea will require different forces than those in the South 
China Sea. Today's military forces are usually not tailored to the 
specifics of their region, in the interest of promoting efficiency by 
reducing the number of training pipelines needed to prepare them and 
enabling the flexibility to deploy units to different regions over 
time. The elevation of efficiency over effectiveness will need to end 
if the United States hopes to deter great power aggression in the 
future.
    A more robust U.S. military posture will translate into a larger 
and more diverse set of military units than today. For example, CSBA's 
recent fleet architecture study found the Navy should grow to more than 
340 ships by the 2030s to address the future security environment, 
close to the Navy's subsequent assessment of 355 ships and about 20 
percent larger than today's fleet. Similar increases would likely be 
needed in other parts of the joint force.
    There is much discussion today about the urgent need to address 
readiness shortfalls in today's force before trying to grow its 
capacity. This is a false choice. Today's readiness crisis is a product 
of the U.S. military's lack of capacity and the increasing demands 
placed on it that are symptomatic of the emerging strategic 
environment. When more ships, aircraft, and personnel are deployed 
overseas from a shrinking force, each unit must deploy longer or more 
frequently. This reduces the time available for training and 
maintenance and eliminates flexibility in maintenance scheduling that 
could allow for unforeseen repairs. Although DOD has received 
increasing amounts of supplemental Overseas Contingency Operations 
(OCO) funding in the last five years to pay for more operations and 
maintenance, this funding cannot be accurately projected and is not 
efficiently used because of schedule changes and emergent work 
resulting from the high operational tempo being sustained by the 
smaller U.S. military.
                               conclusion
    America's military is the best in the world as an overall force but 
is already falling behind those of its competitors in some regions and 
missions. In Eastern Europe, U.S. ground forces lack the fires, 
surveillance and targeting, and electronic warfare capabilities to 
counter battle-hardened Russian forces fighting in Ukraine. In the 
Western Pacific, the U.S. Fleet has fewer ships than the Chinese Navy 
and faces a wide array of land-based counter-maritime capabilities. And 
in the Middle East, U.S. air forces are struggling to sustain an air 
war against the Islamic State, which lacks its own aircraft or long-
range air defenses.
    There is no quick fix to this situation, which resulted from almost 
two decades of decisions to prioritize efficiency and savings without 
reducing the demands placed on U.S. armed forces for peacekeeping, 
security, and stabilization operations. Reversing it and restoring our 
military will require a sustained effort to reshape it for the ways it 
will need to fight in the future and grow it to provide the posture and 
readiness it will require to remain forward. If we fail to do so, 
competitors will erode the security assurances and alliances that 
underpin America's position in the world and with it the economic and 
security benefits that position provides.

    Chairman McCain. Thank you very much.
    Leaving out the issue of sequestration, which is a big 
leave-out, what would be your first two or three top priorities 
that this committee and this administration should address, 
beginning with you, Mr. Ochmanek?
    Mr. Ochmanek. Mr. Chairman, clearly we have unrealized 
potential in many of our platforms, and I think all of the 
other witnesses observed that as well. I believe the quickest 
way to fill that gap is to ramp up the production and 
procurement of advanced munitions, cruise missiles, guided 
weapons, things of that nature that can allow our forces from 
the outset of a campaign to deliver these high-volume fires 
that Bryan talked about. I think that would be number one for 
me.
    Chairman McCain. Mr. Thomas?
    Mr. Thomas. I absolutely agree. I would start with the 
munitions inventory and figuring out how we thicken our density 
of a whole range of munitions that we simply lack today. We 
have got this huge mismatch between the number of platforms we 
have and the weapons to deliver them and to persist in a lot of 
these fights.
    The other thing I would add is getting on with the business 
of looking seriously at the issue of forward-stationing our 
forces. I think this has really been delayed. We have been in 
this expeditionary warfare mindset for 25 years, and I think 
that really needs to be revisited because I think it is very 
dangerous for the world that we are going to be in for the next 
couple decades.
    Chairman McCain. Well, I also would give some credit to the 
previous administration for the European Reassurance Initiative 
on that issue.
    Mr. Donnelly?
    Mr. Donnelly. I would agree with the two points brought up 
before. Again, I would add the need to add people to flesh out 
hollow units. We lose the investment. Even when the platforms 
are ready, the crews are not. If we could just have more people 
within the unit structures and within the institutional 
structures, the headquarters--I know this is like anathema, but 
there needs to be a training base to be able to produce trained 
and ready forces.
    Chairman McCain. Mr. Clark?
    Mr. Clark. I would say munitions, as we just discussed, but 
maybe even more importantly, the ability to passively sense the 
adversary and target the adversary. Today our potential 
adversaries know exactly where we operate with our radars and 
our other active sensors, and if we do not have the ability to 
find them passively without being detected ourselves, our 
weapons are not going to be that useful because we will be 
counter-detected.
    Chairman McCain. Well, we will begin with you with my other 
question, Mr. Clark. We have not talked in this conversation 
much about cyber, and that obviously the aspects of cyber have 
dominated our news and our priorities here for some time. What 
do you think we ought to be doing there?
    Mr. Clark. Clearly, we need to be refocusing ourselves on 
cyber defense of our own networks, particularly our classified 
networks. I think one challenge we are going to face is we are 
focused on our unclassified networks being a potential source 
of exploitation, particularly industrial networks where you can 
get information on acquisition systems. But we need to look at 
the defense of our classified networks where there has been a 
lot of work done by our potential adversaries on how to get 
into those systems as potentially a trusted user. Dealing with 
that would be a key factor I think that we have to deal with in 
cyber.
    Chairman McCain. How about developing a policy as to how to 
counter it, Mr. Donnelly?
    Mr. Donnelly. I would also add that we need to understand 
better what the impact of these things is at the tactical 
level. We have not operated in a contested electronic 
environment really since the end of the Cold War. It is more 
like old-style electronic warfare than it is cyber. Again, this 
brigade from Fort Riley in its National Training Center 
rotation is really going to be the first sort of tactical 
experiment because the opposing force at Fort Irwin will have 
Russian-style capabilities in the exercise. I think that will 
be a great learning experience for us to understand what these 
developments mean for actual people in the field operating in 
this kind of environment.
    Mr. Thomas. Mr. Chairman, we have been talking about cyber 
for more than 20 years, and everyone thinks that they do cyber 
to a certain extent if you look across the services. The 
reality is no one is singularly focused on it as a mission the 
way we focus on the air domain or the undersea or the land 
domain. I think it is time to reconsider do we need a single 
organization which focuses on organizing, training, and 
equipping for cyber warfare. I would start there.
    Chairman McCain. Cyber Command is not doing that?
    Mr. Thomas. I think Cyber is taking component efforts from 
the services, but it is playing the role of a combatant 
commander in terms of how it thinks about fighting the force. 
But I think we are not doing as well as we could be doing when 
it comes to just basically recruiting, organizing, and training 
those forces. In particular, I think about the role of the 
Reserve component, which could be a huge advantage for the 
United States in how we approach cyber warfare in the years 
ahead.
    We also need to fully integrate cyber into our war plans 
today. Oftentimes it is treated as an annex and special 
technical operations, and it is not fully appreciated by our 
operational commanders.
    The last is I think we need to move beyond the ghettoizing 
of cyber and we need to fully integrate it with electromagnetic 
warfare--electronic warfare as we move forward. These two are 
just integrally related.
    Mr. Ochmanek. Very quickly, I would endorse what Bryan said 
about the importance of cyber defense, that is the threat to 
the integrity of our command and control systems. But I want to 
take a page out of Tom Donnelly's book and be the troglodyte 
here.
    Cyber is sometimes invoked by people as a magic wand they 
can pass over things to make up for gaps in kinetic 
capabilities. I am skeptical about that. We do not have a lot 
of ability to test the efficacy of our cyber tools, to the 
extent we have them, nor do we know how long they will last if 
they are in fact in place. So at some level, there is no 
substitute for putting holes in things and breaking them.
    Chairman McCain. Senator Reed?
    Senator Reed. Well, thank you, Mr. Chairman.
    This has been very insightful and I appreciate it very 
much.
    We all talked about priorities, but in reality, they are 
competing priorities. We would all like to do them all and we 
would all like to resource them robustly. But when push comes 
to shove, it is going to be the competition between these 
priorities.
    The three key ones I think that have been mentioned by the 
panel--one is the readiness of the existing force today. Second 
is growing that force with comparable readiness, and then the 
third is the new technologies, the third offset, the leap 
ahead, the investing in something that today does not appear to 
be of immediate consequence but could be the changing system.
    Starting with Mr. Ochmanek, just kind of your response to 
how do we deal with those competing priorities. Do we emphasize 
immediately one and then shift? Or do we concentrate on the one 
that is going to be neglected and that might be the new 
technology? And so your comments and then right down the line.
    Mr. Ochmanek. Senator Reed, could I respectively take a 
little bit of issue with your third priority? I do not think I 
would equate modernization of the force with third offset and 
exotic technologies. I think there are some very near-term 
mature things that we can invest in quickly like munitions that 
we have already tested to really get a rapid return on that 
investment in terms of improved power projection capability.
    I would hope that this Nation could find the will and the 
resources to, at the same time, bring our troops and units the 
training and readiness they need and accelerate this 
modernization program, again buying into near-term munitions, 
sensor systems, forward posture, putting another heavy brigade 
in Europe. These are not high-tech, high-cost, exotic things. I 
think you would get some very quick strategic returns on those 
kinds of things.
    Senator Reed. Mr. Thomas, please.
    Mr. Thomas. For a long time, we have drawn this line 
between near-term readiness and long-term readiness, and maybe 
our adversaries are doing a favor because those really now are 
almost one and the same. The problems we are talking about 
here, whether it is great-power competitions dealing with 
Russia and China or dealing with nuclear powers and potential 
nuclear powers like North Korea and Iran or dealing with the 
continued global jihadist threat--these are all with us today 
and they are going to be with us for quite some time. We do not 
have the luxury of just saying here is what we can do about 
Russia and China 10 or 15 years from now. As Bryan Clark said, 
I mean, a lot of the scenarios we think about are scenarios 
that could happen tonight. These really are not that 
futuristic.
    I think it is a question of balance between what are the 
near-term steps, as Dave Ochmanek is talking about, in terms of 
building up our munitions inventories, forward-stationing, and 
these sorts of steps that we could take immediately, as well as 
skating to the puck of the future in terms of what are we going 
to need as the threats continue to evolve 10 years hence. Ee 
have to do both of those things more or less simultaneously.
    Senator Reed. Mr. Donnelly, please.
    Mr. Donnelly. I would basically agree with what has been 
said by Dave and Jim. A dollar spent today is probably worth $5 
or more programmed 5 or 10 years from now. There are some 
exciting technologies. We have also failed to buy really 
anything new in numbers for 2 decades. We have very few choices 
about what we could throw money at.
    Again, I think there are some things we could do 
differently, particularly with platforms like the F-35B, that 
again would give us capabilities that we do not necessarily 
have on station at the moment but could really use. I believe, 
Senator Reed, you are the one who said the future is now and 
that is pretty much true.
    Senator Reed. Thank you.
    Mr. Clark?
    Mr. Clark. To restore the readiness of the force, even down 
the road just a few years, we are going to have to reduce the 
amount of operations we do today. There is no other way to 
reset the force because we cannot build a bunch of new force 
today. One choice we are going to have to make is reduce the 
operations we do and the stress we put on the force today to 
enable it to get the readiness it might need in 5 or 10 years. 
That is the only way we are going to be able to reset it.
    I think in terms of technology and new systems, as Dave was 
saying, there are a lot of new technologies that are currently 
being demonstrated, tested, prototyped. They are just not 
transitioning. They are just sitting waiting for somebody to 
take them on and say I am going to put you onto my platform and 
begin to use you as a system. Examples of this might be IFPC, 
like Dave was saying, which could really improve our air 
defense capabilities. Active protection systems for tanks and 
other armored vehicles. We do not have active protection 
systems on our ground vehicles today, and every other NATO 
country does. Those systems are available and could be strapped 
on, bolted onto our existing systems.
    Munitions, electronic warfare, sensors. There are a lot of 
systems that we currently are just waiting to bring on board 
and we could incorporate those into the existing fleet or 
force.
    Senator Reed. Mr. Clark, just quickly because my time has 
run out. These systems are out there. Our NATO allies, who we 
generally consider to be sort of less advanced or progressive, 
have them. Why do we not have them? Is it a budget issue or is 
it a cultural issue? What is it?
    Mr. Clark. To some degree a cultural issue. When you do not 
think you are going to have to fight in an environment where 
you are going to be faced with people shooting high-end weapons 
at you all the time, then you tend not to invest in those 
things. And now that we are faced with a situation where all of 
our forces are going to be in contested environments against 
high-tech weapons, they are going to have to start thinking 
about how to defend themselves.
    Senator Reed. Thank you.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Inhofe?
    Senator Inhofe. Thank you, Mr. Chairman.
    I think it is important just to get in the record because 
of this very distinguished panel that we are in a threatened 
position today in this country and times have changed from the 
past.
    We had a hearing--I chair the Readiness Subcommittee--last 
week. We had the vice chiefs come in. It was a pretty sobering 
experience there. They made their testimony such as General 
Allen said we have had most of our modernization programs on 
life support for the last several years. Currently our 
modernization is 50 percent of what it was in 2009.
    It was General Wilson, and this is a quote. He said at the 
very bottom what we called the hollow force of the 1970s, 
pilots were flying 15 sorties a month, about 20 hours. Today we 
are flying less hours, less sorties than we did in the 1970s. 
He was saying essentially we have a hollow force today. We have 
to recognize that.
    The first question I would ask you probably in anticipation 
of this, you read some of the statements that were made by the 
four vice chiefs. If so, do you agree pretty much with them?
    Mr. Ochmanek. Senator Inhofe, I do agree. Some of this is 
probably unavoidable as a result of 15 years of heavy use of 
the force and ongoing operations. Some of it is certainly 
related to budget constraints that have been placed on the 
force by the Budget Control Act. But we absolutely do need to 
get our men and women in uniform and our units the training and 
resources they need to be at their peak level of readiness.
    Senator Inhofe. Thank you very much.
    The rest of you, do you generally agree with them?
    Mr. Clark. Yes, sir, Senator.
    One thing I would add, though, is part of the reason we had 
this readiness problem is we do not have the time for the 
forces to train and maintain between deployments. The other 
part is the budget uncertainty, not so much the lack of money 
overall. It is the fact you cannot plan your maintenance in 
advance and then budget to it and carrying it out. As a result, 
you have to do maintenance on an emergent basis or it is 
insufficiently planned, which causes growth. It increases the 
cost, and then you do less work in the end.
    Senator Inhofe. Yes, but of course, if you are in a period, 
as we have been, of starving the military, the first thing that 
goes is maintenance and then modernization because that is less 
visible out there.
    Now, you, Mr. Clark, mentioned just a minute ago--yes, it 
was you that said it would take at least a decade preparing 
right now for what we are going to try to have for the future 
to face these threats that are coming. I think, Mr. Thomas, you 
also made reference to taking a decade.
    It reminds me a little bit of my last year on the House 
Armed Services Committee before I came to the Senate. We had 
someone testify--this is 1994--that in 10 years we would no 
longer need ground troops. It kind of puts us in a situation. 
If it is going to be 10 years, what do we prepare for today? 
That is a problem.
    Now, the one agreement--and I think it is very significant 
that we get this in the record from the four of you. You have 
already done it I think in your opening statements and in your 
responses--is you are looking very much at forward-deployment. 
I think we all agree that that is necessary.
    We remember also--it was back in the 1990s during the 
Clinton administration--the emphasis was the other way. In our 
political system, something you folks do not have to deal with 
but we do, people, when they start talking about going through 
a BRAC round just say, fine, just do not do it here at home. Do 
it overseas. Well, that is what happened.
    I remember when Vincenza was under attack. That was in 
Italy, and it was one of them that was going to be reduced down 
in the process of the BRAC round.
    Now, we all remember what happened when we were trying to 
get troops into Iraq and we were not able to take them on the 
ground through Turkey, and so Vincenza came through. Well, if 
that had been bad weather at that time, we could not have done 
it, so we went in. It was very difficult to do, but we rebuilt 
in Aviano the capability of sending these kids in no matter 
what the weather conditions and all that.
    I am saying I agree wholeheartedly. I disagreed back in the 
1990s when the reverse was true. I would like to have each one 
of you make a comment as to the necessity for the forward-
deployment, anything you have not already said so it will be in 
the record, starting with you.
    Mr. Ochmanek. Senator Inhofe, our alliance relationships 
and the integrity of those security commitments that we give to 
our allies are the bedrock of our national security strategy. 
If we are going to influence events in Eurasia, which have the 
potential to directly affect the security and wellbeing of 
Americans, it is important that those security alliances be 
viable. Forward-stationed U.S. Forces are both a tangible 
demonstration of the U.S.'s will and ability to defend common 
interests abroad, and they are the advance lead elements of our 
initial defensive operations. I absolutely agree that forward-
stationed forces are essential to the viability of our strategy 
and that we are under-postured certainly in Europe and to some 
degree in the western Pacific as well to meet the challenge.
    Senator Inhofe. My time has expired. Do the rest of you 
generally agree with that statement? Thank you very much.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Warren?
    Senator Warren. Thank you, Mr. Chairman.
    Thank you to the witnesses for lending your expertise here 
today.
    You know, when I look at what is happening, it seems to me 
that right now our potential adversaries are more interested in 
challenging us through cheap and asymmetric means, whether that 
is through cyber activities, the use of local agents, 
separatists, paramilitary forces, as we have seen in Ukraine 
and other places. All the ships and all the aircraft in the 
world cannot solve that challenge. In fact, our adversaries 
pursue alternative means to achieve their ends precisely 
because we have always had such dominance in the air and sea.
    To start, I would like to focus on one of these asymmetric 
threats. Mr. Clark, what capabilities do we need in the cyber 
realm specifically to deter asymmetric actions that fall short 
of open conflict?
    Mr. Clark. The first thing, Senator, would be to have a 
cyber policy that clearly defines what our actions are going to 
be in the event of an attack and clearly defining what it is 
that we mean by attack. This might involve being a little bit 
more open with things that we now treat as classified and do 
not want people to hear about. Just like in other areas of 
warfare, we are going to have to be more open about it.
    Senator Warren. That is very helpful. Thank you.
    Do you believe that future conflict with a sophisticated 
adversary will involve attempts to exploit our cyber 
vulnerabilities, disrupt our reliance on space, or distort our 
ability to communicate and share information rapidly?
    Mr. Clark. Certainly, yes, Senator. Also, it is going to 
involve electronic warfare where they do not just use the wired 
Internet but also use the radio frequency spectrum to affect 
our ability to conduct the kinds of operations we are used to.
    Senator Warren. What kinds of investments should we be 
making in order to prepare for this kind of contingency?
    Mr. Clark. The focus should be maybe on the ability of our 
forward forces to be able to operate in an environment where 
they are going to lose a lot of the long-range communications 
that they today are used to having. So line-of-sight 
communications, more resilient communications that are jam-
resistant. There are technologies out there. DARPA has a lot of 
programs that are building these. They are very successful. It 
is sort of amazing how well that they are able to protect 
communications. You just have to accept the fact that you are 
going to be down to a much shorter-range set of operations than 
you are used to.
    Senator Warren. I think that is very helpful, and I 
appreciate that.
    We have heard a lot today about conventional equipment, but 
I think that these new domains may well be decisive in any 
future conflict and we should be putting a lot of attention on 
them.
    We have also heard a lot today about the size of the force, 
and I just want to take a minute to ask another question about 
the focus on its future capability. The Department recently 
briefed this committee on its third offset strategy and 
advanced technology, and while it all sounds very promising, 
the fact is many of these technologies that they are talking 
about are still in development.
    So given that that is the reality, what priority should we 
give to maintaining or increasing the size of the RDT&E budget 
in fiscal year 2018 so that the investments are in place to 
support the Department's third offset and other offsets and 
efforts like the ones that you all have described in your 
testimony? Mr. Clark?
    Mr. Clark. I would say we need to increase the RDT&E budget 
not just to bring on some of the far future technologies but to 
transition some of the ones that have been developed. We have a 
lot of really effective technologies that have been 
demonstrated that I have seen but just have not been 
transitioned into the force because they have not made that 
last set of testing or that last set of transition developments 
that are enabled to be plugged into an existing platform.
    Senator Warren. Well, let me actually just hone in on that 
a little bit more. As you point out, we may be 10 to 20 years 
away from some of these technologies like autonomy before they 
are fully mature. Are there other more achievable near-term 
technologies that we should be investing in right now to put us 
on the right path?
    Mr. Clark. Electronic warfare systems I think would be a 
key area and undersea warfare systems. Autonomy undersea is 
very hard because of sensor capabilities, and so the other 
place I would look at investing is in sensor capabilities to 
enable an autonomous system to better see where it is going. I 
mean, the problem we have with autonomous systems in a lot of 
cases today is they do not have a good enough sense of their 
environment to make a good decision. They can be really smart, 
but they cannot see what they are doing.
    Senator Warren. It is very helpful. I see lots of nodding 
heads. I will put this in as a question for the record so I can 
get everyone's views on this.
    You know, I think we should be budgeting our defense 
resources based on 21st century threats. I want us to invest 
smartly not simply rolling out more of the last century's 
equipment off the production line, but instead focusing our 
investment on the next generation and even leap-ahead 
technologies that are more likely to ensure our military's 
superiority across multiple domains.
    Thank you very much.
    Thank you, Mr. Chair.
    Chairman McCain. Senator Cotton?
    Senator Cotton. Thank you, Mr. Chairman.
    Thank you, gentlemen, for your testimony today. A lot of 
the talk today has focused on three buckets, about which we 
frequently speak: end strength or how many troops we have; 
readiness, how those troops are trained, ready to fight; and 
modernization, buying new stuff for the future, new vehicles, 
new aircraft. We have not yet touched on a subset of that third 
bucket, nuclear modernization, some of which is both nuclear 
conventional like the F-35 or the B-21, some of which is 
exclusively nuclear like the ground-based strategic deterrent 
or the nuclear command and control system.
    Could we just maybe start at my left, your right, and go 
down the panel and get your thoughts on nuclear modernization? 
Mr. Ochmanek?
    Mr. Ochmanek. Senator Cotton, I think the Nation at this 
point does not have a choice but to modernize its strategic 
nuclear forces simply because of the block obsolescence of our 
major platforms and weapon systems. Nuclear weapons remain the 
bedrock of our security. We must have a viable deterrent. We 
must have a viable second strike capability so that no 
adversary ever could see an advantage to crossing that 
threshold and using nuclear weapons against us. I think the 
Ohio replacement program rightly has first place in line both 
because of the age of the Ohio ships and also because I 
personally believe that the undersea portion of our nuclear 
triad is the bedrock of that survivable second strike force.
    Senator Cotton. Mr. Thomas?
    Mr. Thomas. I would just add to that and say we need to be 
paying closer attention to our tactical nuclear forces and the 
tactical nuclear balance. The most likely nuclear confrontation 
we are going to have is going to be a theater range tactical 
contingency, and this is one that I think we have largely 
given--we have been inattentive to over the past 25 years. For 
example, in the case of Europe, we know that Russia is in 
violation of the INF Treaty. They are developing medium-range 
both cruise and ballistic missile systems that could hold NATO 
military targets at risk. I think we should question the 
ability of fourth generation fighters armed with gravity bombs, 
B-61's, to respond in the presence of precision air defenses 
that would likely ring almost any militarily significant 
target. We need to have viable theater-range, lower-yield 
response options than we currently do.
    Senator Cotton. Before we move on, I have got to follow up 
on that. What is your best estimate on the imbalance today 
between Russia and NATO forces on tactical nuclear weapons?
    Mr. Thomas. Well, there is obviously a numerical asymmetry 
that favors Russia. I would say more importantly is the 
qualitative asymmetry. In terms of these middle rungs on the 
escalatory ladder, I think Russia has the advantage, and we 
need symmetrical, in-kind response options that we lack. We 
talk a lot about LRSO and that is a viable option. There may be 
other systems more similar to JASSM, which allow us some low 
observable standoff capability with a very high probability of 
the weapon arriving at the target that we are going to need to 
consider in the years ahead.
    Senator Cotton. You mentioned Russian violations of the 
Intermediate-Range Nuclear Forces Treaty. If media reports are 
to be believed and Russia has now not just tested but put into 
operational use a road mobile cruise missile of intermediate 
range, does that mean that the United States is the only Nation 
on the face of the earth that has restrained itself from such a 
missile?
    Mr. Thomas. I do not know if it is the only Nation on the 
face of the earth, but if you think about the robust arsenal of 
intermediate-range ballistic missiles that China has built up, 
the IRBM capabilities of North Korea and Iran, and now Russia 
in flagrant violation of the INF Treaty, the United States is 
kind of the last party standing. We look sort of like a chump 
in this class of problems. This is an area where we need to 
probably be thinking about a world beyond the INF Treaty both 
because that may be the world that becomes our reality, but 
also if we want to go back and try to reinforce the INF Treaty, 
we have to have some viable military backstop for any sort of 
negotiations. Right now we would be negotiating from a position 
of technological weakness.
    Senator Cotton. Thank you.
    Mr. Donnelly?
    Mr. Donnelly. I would agree again with what Dave and Jim 
have said, but Jim's point I think is a larger one than he 
suggested. That is, we have a strategy deficit when it comes to 
nuclear warfighting. I hate to use that terrible term. We have 
a world that is increasingly a multipolar nuclear world. There 
was a report yesterday that the Chinese have allegedly reached 
parity both qualitatively and quantitatively with the U.S. 
nuclear arsenal. I have no idea whether that is actually true 
or not, but if it is not true today, it will be true tomorrow 
or pretty soon.
    So we think in Cold War very tit for tat terms. I am not 
sure what the new paradigm should be, but I am pretty sure that 
the old one is inappropriate to the world that we are living in 
now.
    Senator Cotton. Mr. Clark?
    Mr. Clark. I would agree with the comments of all my 
predecessors here, particularly with regard to the tactical 
nuclear weapon question because if we do not have the ability 
to respond to that kind of threat, it is not so much that we 
might have an exchange there, but it is just the fact that we 
are vulnerable to coercion then. The Russians threaten the 
Baltics. We threaten to come in on their behalf. The Russians 
threaten a small nuclear attack, and we do not have any way to 
respond to that, so we are forced to back down.
    Senator Cotton. Thank you.
    Chairman McCain. Senator Hirono?
    Senator Hirono. Thank you, Mr. Chairman.
    All of you have identified a number of countries in the 
Asia-Pacific region as threats, and you additionally identified 
the prepositioning of U.S. Forces as a key strategy in the 
proposed reshaping of the military.
    Relative to what is in place in Pacific Command right now, 
what additional assets and capabilities would you recommend 
placing in the Asia-Pacific theater? We can start with Mr. 
Ochmanek.
    Mr. Ochmanek. Senator, I would start by ensuring that the 
bases and facilities that we rely on in that theater have what 
they need to defend themselves in the case of attack. As I 
mentioned in my remarks, there are some fairly rudimentary 
things we can do. Putting gravel out there to fill holes in 
runways, building inexpensive shelters so that our airplanes 
are not exposed to observation and attack, moving those 
airplanes around more frequently would go a long way toward 
bolstering our deterrent posture in that region.
    Going beyond that, these deficits we see in capabilities 
across the board for standoff weapons and munitions, for 
sensors that can survive in a contested environment, those 
sorts of things. As we begin fielding more of those 
capabilities, the Asia-Pacific region should have perhaps first 
claim on those as they reach the force.
    Senator Hirono. Do we need more submarines in the area?
    Mr. Ochmanek. I think that submarines can make very 
important contributions. Every combatant commander but 
particularly the commander of PACOM would like to have more 
submarines.
    Senator Hirono. If the rest of the panel pretty much 
agrees, if you have something to add, please do so, otherwise I 
can go to my next question.
    Mr. Donnelly. I have a couple of things. First of all, we 
need to be more forward, particularly in Southeast Asia and the 
South China Sea. It is very unfortunate that President Duterte 
is not only an erratic personality but seems very interested in 
at least balancing American influence with Chinese influence.
    Secondly, you need to think about the theater more broadly 
speaking. We are treating it now only as a maritime theater. 
China is principally a continental power and its most 
traditional strategic vulnerabilities have been from Southeast 
Asia and also from Central Asia. This is a case where a 
continental power is going to sea and projecting power, and we 
are doing nothing to divert its attention back to its most 
traditional and the things that make the Chinese most 
neuralgic.
    Mr. Clark. I would add that we need to increase the forward 
posture of surface naval forces, as well as submarines, because 
that is maybe a more visible deterrent to Chinese aggression, 
at least over next 5 or 10 years.
    Australia is a place we need to be putting investment with 
regard to infrastructure and expeditionary basing in the 
northern part of Australia. In our wargaming, we find a lot of 
times that Australia ends up being the sustainment point for a 
lot of United States Forces that would be operating in the 
South China Sea.
    Senator Hirono. Well, right now, we have rotational forces 
in Australia. But what about Guam then to what you are seeing?
    Mr. Clark. We already rely on Guam, but what happens in 
some of these games is that Guam ends up supporting operations 
in the East China Sea and we end up having to rely on Australia 
to a greater degree to provide the fuel and the back office 
logistics, if you will, for the force that is in the South 
China Sea.
    Senator Hirono. Do we not have some concerns about 
Australia's willingness to have our ongoing presence there?
    Mr. Clark. Not necessarily. I was in Australia a month ago 
and talking with the government officials there. They are very 
supportive of a U.S. presence and using the--they call them 
expeditionary bases in northern Australia to a greater degree 
than we do today.
    Senator Hirono. Thank you.
    Our reliance on special forces--the U.S. has relied very 
heavily on special operations forces over the past decade and a 
half, and they have been very successful in many missions, 
including anti-terror operations. There is speculation that 
President Trump could rely even more on these forces that, some 
would argue, have been overused and in need of better dwell 
ratios.
    What are your thoughts on the role of special operations in 
the future? Anyone?
    Mr. Thomas. Well, I would just comment and say I think the 
role of special operations is going to continue to expand. We 
have already taken steps over the last decade to grow our 
special operations forces. They can only grow at a certain 
pace, and we are limited in terms of recruitment and the 
training pipeline. It will always be a very limited, highly 
valued asset.
    But as we think about great power competitions, I think 
that the special warfare role of the special operations forces 
is going to increase; that is, think about unconventional 
warfare, training our allied and partner forces in resistance 
techniques, helping them to assert more effective local 
defenses in the event of an invasion or even low-intensity gray 
zone activity in those countries. They will also have a much 
greater role to play in some of the missions Dave Ochmanek was 
talking about earlier, in things like disrupting the sensor 
grid of an opponent early in a campaign. But direct action and 
special reconnaissance roles for special operations forces in 
high-intensity conflicts I think is also an area that will 
increase.
    Senator Hirono. Do the rest of you agree? Very briefly.
    Mr. Donnelly. I disagree pretty strongly. We have grown our 
SOF. They have done remarkable things over the last 15 years, 
but they have had no discernable strategic effect from my point 
of view. I think that is in the nature of special warfare. It 
is very difficult to achieve a large-scale effect by raids and 
things like that. I think it has diverted our attention from 
things that are more strategically critical.
    Senator Hirono. Thank you very much, Mr. Chairman.
    Chairman McCain. Senator Ernst?
    Senator Ernst. Thank you all very much for your testimony 
today.
    I chair the Emerging Threats and Capabilities Subcommittee. 
Yesterday I held our first briefing and focused on Russia's 
increasing anti-access/area denial capabilities in Europe. The 
current problem set that is posed by Russia right now is 
expanding placement of their air defense systems, surface-to-
surface missiles, and coastal defense weapons. All of this is 
not just concerning to me. It is concerning to a lot of folks 
out there.
    My concern is compounded by Russia's aggressive actions. We 
see it every day on the news, not just with their naval 
vessels, but their ground forces as well.
    Mr. Ochmanek, you argue that a significant portion of the 
capability gap we face on NATO's eastern flank can be addressed 
today through appropriate U.S. Force structure changes. Could 
you explain a little more about that, and really, what is the 
most immediate need that you would see to counter the rising 
threat that we see from Russia?
    Mr. Ochmanek. Senator Ernst, in our gaming, we found that 
there is sort of a critical threshold of about three heavy 
brigades that need to be present to actually give the defending 
forces the ability to effectively slow down an advancing 
Russian attack on the Baltic States. So positioning that kind 
of asset, along with artillery forces forward, would make a big 
effect on deterrence.
    But there is a capability dimension to this as well, and 
you mentioned the Russian air defenses. Since the end of the 
Cold War, the Russians have deployed whole new generations of 
surface-to-air missile systems. These are longer-range systems 
than we ever encountered before, very powerful radars, very 
capable electronics. We are still shooting at them a weapon 
that was developed in the 1970s, and it is out-ranged by the 
things it is shooting at. So we are asking pilots to go into 
situations to suppress SAM systems that they cannot reach with 
their weapon.
    Solving this particular problem has nothing to do with 
high-tech. It has to do with building a bigger rocket. We know 
how to do that. That is why I say this is not necessarily a set 
of things that requires a lot of high, exotic technology. It 
involves ramping up investments in things we know how to do 
today.
    Senator Ernst. The suggestion of three heavy brigades in 
Eastern Europe--would that be a permanent presence? Is that a 
rotational force? Is that a combination of the two?
    Mr. Ochmanek. we are examining those options for the Army 
right now at RAND. I think it could be a combination of the 
two. You certainly want to have some on-the-ground presence all 
the time, if only to cope with the possibility of a surprise 
attack out of the blue, but I think also just positioning a lot 
of the heavy equipment there and ensuring that we can fly 
people into marrying up with it quickly would also be a part of 
the solution.
    Senator Ernst. Also part of the solution is just different 
munitions as well.
    Mr. Ochmanek. Absolutely right. Having those also forward 
so that they are available from the outset of a conflict.
    Senator Ernst. I appreciate that very much. Thank you.
    Mr. Donnelly, in your testimony you talk about how things--
I like this--like warp drives and cloaking devices would be 
cool, but in the meantime, we really do have to refurbish our 
current force. After hearing the service vice chiefs testify on 
readiness last week, I think all of us where appalled once 
again this year. I think you raise an important point.
    Focusing on readiness and ensuring our current capabilities 
can address the threat we face today is very important. That is 
why I have been a proponent of upgrading small arms.
    General Allen last week in his testimony--he said something 
that was pretty striking I think that we all should listen to. 
He had said if we do not have soldiers carrying guns, we do not 
have anything. So true for the Army. How important is it for 
fixing today's readiness in making sure that we are ready to 
fight the wars of tomorrow?
    Mr. Donnelly. I think it is really a disservice to 
disaggregate wars by type and to abstract out the element of 
time from any strategic competition. We could invent some 
really nifty gizmos and we could probably do it pretty quickly. 
We actually have a lot of technology that is backed up in the 
pipeline that just has not made it to the field that we could 
accelerate by modifying some of the things that we failed to 
field and be in much better shape. But really, we always take 
the element of time out of our reckoning of our military 
posture, so that is why we are where we are today.
    Senator Ernst. Exactly. Thank you very much.
    Thanks, Mr. Chair.
    Chairman McCain. Senator King?
    Senator King. Thank you, Mr. Chairman.
    All of you have testified in one way or another about one 
of the important features of a new strategy is the dispersement 
of assets, a distribution somewhat across the country. I do not 
question that strategically except that it puts a much greater 
strain on communications. The tide of the Civil War turned when 
Lee lost his ISR, otherwise known as Jeb Stuart, at the Battle 
of Gettysburg. As we distribute, I am just worried about our 
communications, cable and satellite principally, being 
disrupted on the first day, and with a distributed system, then 
you have a lot of autonomous units without necessarily the 
command and control that can put them effectively into the 
field.
    Your response?
    Mr. Ochmanek. A very good point, Senator King. We are 
constantly balancing between the efficiency of having small 
numbers of lucrative targets out there and the survivability of 
distributing the force in a way that makes it more difficult to 
attack. And absolutely, distributing the force places a premium 
on survivable communications and also training that force so 
that they can operate in what we call a low bandwidth 
environment. Our analysis suggests that with modest investment, 
we can assure ourselves of having at least minimal 
communications with disbursed forces even in highly jammed 
electronic warfare environments. But there is a culture 
dimension to this, as well as a technology dimension, and 
learning how to operate in that low bandwidth environment where 
you are not getting massive amounts of data from higher 
headquarters but still being effective is part of the solution.
    Senator King. Do others have thoughts on that issue of 
communication?
    Mr. Thomas. I would just add that we have a huge 
opportunity in places like Japan to move from wireless 
communications to go to buried fiber. We can have very, very 
secure communications links between distributed cluster bases 
across the country and our ability to immediately disperse 
aircraft out not only to military bases but also potentially to 
civil airfields and then to be able to net them together with 
buried fiber that is very hard to attack is a potential 
advantage that we have and we could exploit.
    Senator King. Let me change the subject for a minute. We 
have been talking principally about peer adversaries and those 
kind of conflicts. Yet, the real conflict that we have faced 
over the last generation has been asymmetric, non-state actors, 
terrorists, lone wolves. That is an entirely different kind of 
adversary. What has bothered me--and I have been going to these 
hearings in Intelligence for 4 years, and we are engaged in a 
kind of international whack-a-mole where we are trying to kill 
the hydra and it keeps growing back.
    Should we not also be talking about a much more vigorous, 
strong, focused information war with this Islamic terrorist 
faction that is so dangerous? For example, I think in 1998 we 
did away with USIA. It drives me crazy that we are the country 
that invented Hollywood and Facebook, and yet we are losing the 
information war. I see a lot of nods. For the record, could you 
say yes?
    Mr. Clark. I would say, obviously, the information war 
involves being better at doing public diplomacy. But also part 
of the information war is defeating the adversary out in the 
field.
    Senator King. You cannot kill an idea with a gun.
    Mr. Clark. Right, but you can start to erode the viability 
of that idea by demonstrating that it does not have an effect 
in the end. If you can show the terrorist acts that are 
attempted and fail or that the IS troops are dying and losing 
in the field, that is part of the information campaign, and 
then you have got to communicate that to the potential recruits 
they are trying to seek.
    Mr. Donnelly. A couple things.
    First of all, you can kill an idea with a gun. The counter-
Reformation was killed because it failed militarily. Spain's 
bid or the Hapsburg bid to dominate Europe was defeated on the 
battlefield by both Catholic and Protestant powers.
    Secondly, again abstract out the phenomenon of Islamic 
terrorism from the geopolitical--the struggle for power in the 
Muslim world, the Arab world--chose your term of art-- is again 
bound to be misleading. That leads you to not only whacking 
moles but whacking the wrong moles. So putting war back in its 
political context would be the most clarifying thing that we 
could do especially in the Middle East.
    Senator King. But war does not always necessarily--when you 
use the term ``war,'' you are not necessarily, at least in this 
day and age, talking about nation states. That is the 
conventional thought of war.
    Mr. Donnelly. In the period of the 17th century, the wars 
of the Reformation and counter-Reformation were conducted not--
there were nation states involved, but there were what we would 
describe as terrorists. You know, we could use the very same 
language to describe that conflict as we use today to describe 
the conflict in the Middle East.
    Senator King. Perhaps there are some lessons we could take 
from that period.
    Mr. Donnelly. Well, history is good.
    Senator King. Thank you.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Sullivan?
    Senator Sullivan. Thank you, Mr. Chairman.
    Gentlemen, thank you for being here. Your testimony is very 
helpful.
    I just have one question. I think a number of us have to go 
vote. But it is about missile defense and about the recent 
threats, the growing threats, the inevitable threats--let us 
face it--of North Korea. This is all unclassified. It is not if 
but when he is going to be able to range the continental United 
States with an intercontinental ballistic missile, likely with 
a nuclear intercontinental ballistic missile. That is going to 
happen at some point. You know, the classified estimates are a 
little bit nerve-racking. He is already being able to range 
places like my home State of Alaska--the North Korean 
leadership.
    Do you think we need to do more on missile defense to buy 
us an insurance policy if you have a leader of a rogue nation 
who is trying to shoot one or two nuclear missiles at the 
United States and to be able to say, hey, we are definitely 
going to shoot this down and then if you do this, we will 
massively retaliate? What should we be doing? I think we are 
not doing nearly enough on missile defense, but given the 
threat, what do you think we should be doing? I just want the 
answer focused on missile defense. I know there is a whole 
other dimension of what we should be doing on North Korea.
    Mr. Donnelly. As a matter of missile defense, I mean, the 
North Koreans still have liquid fuel missiles. So they need to 
bring it out of the garage and put gas in it. We should figure 
out how to find that missile on the launch pad and destroy 
before it is launched.
    Mr. Ochmanek. But we have to assume that one day they will 
also have a solid fuel mobile missile that we cannot be 
confident--I think this is one area, Senator, where we are 
ahead of the power curve with our national missile defense 
ground-based interceptor systems. As I understand it, the focus 
now is on improving the reliability of each of those missiles 
and their guidance systems, which were admittedly kind of 
rushed into initial operational capability. So continuing to 
focus on that, making sure they are reliable as well.
    But I agree that this is not a nation that we can be 
confident of being able to deter from using nuclear weapons 
through the threat of retaliation because of their very 
weakness and the unpredictability of this leadership.
    Senator Sullivan. Anyone else on missile defense as it 
relates to North Korea?
    Mr. Clark. Clearly, this is one case where the ground-based 
defenses in the United States make sense because it is a small-
scale threat that could be dealt with those kind of 
capabilities, and it is one that is not likely to be deterred 
with the threat of retaliation because there is not much for us 
to gain by immolating North Korea.
    Senator Sullivan. Great. Thank you, gentlemen.
    Senator Reed [presiding]. Thank you very much, Senator 
Sullivan.
    I am informed that Senator Blumenthal and Senator Strange 
would very much like to come and ask questions. I have the 
opportunity to bedevil you a bit, and I will take that 
opportunity.
    One of the issues that we face--we have talked about how we 
grow the force, how we make it more ready, and how we do the 
innovation. On the innovation side, so much seems to be now in 
the commercial sector, particularly with cyber, some electronic 
products, autonomous vehicles. It is not the old industrial 
model of an arsenal, a contract for the Department of Defense 
doing the cutting-edge work, a national laboratory doing the 
really great work. I think this is important.
    How do we make the connection with the commercial sector? 
What are the obstacles? How do we do it better? All your 
comments would be appreciated.
    Mr. Ochmanek. Senator Reed, I am not an expert on 
acquisition or industrial policy, but I can only agree with you 
that much of the dynamism in these areas is happening in the 
private sector. I know Secretary Carter and Deputy Secretary 
Work have reached out to Silicon Valley to improve our 
connections there between them and the Department of Defense.
    The point I would make from a force planning standpoint is 
we have to assume that any advances we make in exploiting these 
kinds of information technologies for our armed forces are not 
likely to be monopolized by us. Right? Those technologies are 
available through private R&D throughout the world. These are 
not long-lasting advantages we are going to have. We are 
interested in finding ways to use red teams in a more vigorous 
way to ensure that we can anticipate what our adversaries will 
do in response to these kinds of developments.
    Senator Sullivan. I have noticed the return of my 
colleagues. I will suspend that wonderful line of questioning. 
Senator Strange, on behalf of Chairman McCain, you are 
recognized.
    Senator Strange. Thank you very much, Senator.
    I want to express my appreciation to the panel for being 
here today.
    I am very pleased to serve on this committee. It is my 
first hearing. I respect the long tradition of bipartisanship 
on this committee. The armed services, military is critical to 
my State. I am following in the footsteps of Jeff Sessions, but 
I have a rich military tradition in my family. Senator Reed and 
I talked about my uncle who went to West Point, the 
contribution of our State. I am highly concerned with the 
issues you have raised. I am very new, obviously.
    But the one thing that I have learned in the short time I 
have been here is the urgency of these needs. The question I 
have for you--and I know Mr. Donnelly addressed it. There are 
two or three things that you had on your urgency list. Is there 
anything else--and feel free, anyone, to comment on this--that 
the Pentagon could do immediately that would address some of 
these urgency needs? So much of what we talk about has a long 
horizon. But is there anything in particular you would like to 
add that you have not already mentioned for the record that we 
could be thinking about immediately to address some of these 
issues?
    Mr. Ochmanek. One thing we have not really mentioned is the 
importance of training and exercises, both as a way of 
improving the facility of our forces but also demonstrating to 
adversaries that we have capabilities they may not have taken 
into account. So we have been very predictable over the last 
few decades of where we operate in the Western Pacific, out of 
Okinawa, out of Guam. If airplanes start showing up in small 
numbers unpredictably at places where we have not been before--
and here the Philippines is the perfect place, if we can ever 
get the politics right again. But Australia, Southeast Asia--
you know, here are eight airplanes that are going to operate 
for 2 weeks and demonstrate the capability to sustain a high 
tempo of operations from an austere base. That is a cultural 
change for our United States Air Force. The Marines are better 
at it than the Air Force. That would alter the deterrent 
calculus of China because all of a sudden they have uncertainty 
about how we are going to operate and what they have to contend 
with in war. That is just one small thing.
    Senator Strange. Thank you.
    Mr. Thomas. I would just pick up on Dave's demonstration 
point and say it is also thinking about surprising ways in 
which we can repurpose some of the forces that we have in 
existence today. So the classic example is the SM-6 missile, 
which is designed for air defense but could also be used in a 
surface attack role. We could think about the use of bombers 
firing air-to-air weapons. We could think about submarines and 
novel missions they could perform or demonstrate perhaps 
involving the suppression of enemy air defenses. So there are a 
lot of ways we could be perplexing and surprising our potential 
adversaries and changing their calculations by demonstrating 
that many of our systems could be used in ways they have not 
anticipated.
    Mr. Donnelly. Sir, I think there are a number of things we 
could do to better harvest the technologies and the programs 
that we did not bring to fruition. One thing that is very 
obvious is the Navy's cruiser modernization program. We were 
going to upgrade the Ticonderoga-class but then put half of 
them in mothballs so that we can have another 10 years' worth 
of cruisers. Again, if time is an important part of your 
calculation, bringing that extra capability into the fleet 
earlier rather than saving it for a rainy day makes a heck of a 
lot of sense.
    Also, take, for example, the very troubled Zumwalt program. 
It was just poorly conceived from the start. It is a big boat 
with a big engine in it. I have been told it is technologically 
possible to turn that--to equip it with electromagnetic guns or 
directed energy weapons, which would be a very effective fleet 
air defense platform. Again, I am not enough of an engineer or 
a budgeteer to figure out what that would cost, but again, if 
we are looking about how to get quick return on investment 
beyond just making what we have got a little bit better, there 
are modifications like that that we could make that would bring 
greater capability and greater capacity to the table faster.
    Mr. Clark. I would say to build on what Jim and Dave talked 
about, the idea of experimentation--it is not just 
demonstrations, but the idea of going out and doing experiments 
to be able to figure out how to employ these modifications to 
existing weapons. The OSD's Office of Strategic Capabilities is 
doing a lot of really good work in terms of modifying existing 
weapons to make them usable for other types of missions, and 
then doing experiments to say, well, how is that going to work 
and come up with the operating concepts and the tactics and 
publish those. Those are things you do within the next 2 years 
and you would have new capability. So that is an urgent thing 
that we could do now.
    Senator Strange. That is very helpful to me. I take away 
this urgency message. It comes through loud and clear. The 
repurposing concept is very helpful and encouraging. I am 
already over my time. Mr. Chairman, I apologize. My first 
appearance at the committee. Thank you.
    Senator Reed. Thank you, Senator.
    On behalf of Chairman McCain, Senator Blumenthal.
    Senator Blumenthal. Thanks, Senator Reed.
    As you know, we are moving toward a new world with new 
technology. You know better than we do what those new 
technologies may be. One way to address this challenge is the 
third offset strategy, which seeks to improve the Department of 
Defense's operational concepts, organizational constructs, and 
technological capabilities to restore United States power 
projection and deter conflict. Deputy Secretary Work, for 
example, has been heavily involved, emphasizing that it is 
about, quote, preserving peace, not fighting wars. End quote. 
As we invest in these new technologies, we need people who can 
help us develop and implement them, and we need to be able to 
recruit the right talent.
    Do any of you have any thoughts about how we actually 
recruit that talent that we need so desperately in these new 
technological areas?
    Mr. Thomas. Senator, it is a great question. One area that 
I think this committee might explore further is repurposing and 
kind of re-imagining the Reserve component of the armed forces. 
For a lot of things we are talking about, you are looking for 
creativity and ingenuity. You do not necessarily need that 40 
hours a week. You need it periodically. You almost want kind of 
your mission impossible set of resumes that you can flip on the 
table and say I need this guy, this guy, and this woman over 
here to go as a special team and think about a new concept, 
think about the application of a new technology, think about 
how they can confound an adversary. We have this almost 
inexhaustible pool of talent in the United States, both 
technologically, in the humanities, in terms of the ethnic 
heritages of Americans, and I do not think we are nearly 
exploiting that sufficiently.
    Mr. Clark. One thing I think we need to do is carefully 
look at the technologies that are being pursued in the 
commercial sector that we may harvest our own. There are some 
great examples of that in communications in particular, the 
work that Google is doing with the *Loon Balloon program is a 
great example of a technology we can just harvest ourselves 
without having to develop and then things that we develop 
uniquely in the military and try to attract the engineers into 
those fields where they want to do interesting work but they do 
not want to go do communication technology work for DOD when 
they can go do it for Google. But if you want to do work in 
electronic warfare or electrical engineering that relates to 
electronic warfare or undersea warfare on acoustics, then the 
military is the main place you are going to be able to do those 
kinds of technology developments. So if we clearly strategize 
our technology development to focus on things that are uniquely 
military, we are more likely to attract those engineers who can 
only come to you to be able to do that work.
    Senator Blumenthal. Thank you.
    Mr. Donnelly. Sir, if I can say, again, I sound like such a 
knuckle-dragger here I am sure. But if we could get some new 
stuff in the hands of soldiers and sailors and airmen and 
marines, they would figure out amazing ways to employ it.
    Things that others have talked about earlier about 
operating aircraft in a dispersed environment--that is what the 
Army and the Marines already do with their helicopters. Doing 
it with an everyday stealthy strike aircraft--we do not even 
know what that would mean. Again, we have very talented and 
innovative people who wear the uniform, again, not for a 
paycheck but because of a whole host of other reasons. If we 
could just get them some new tinker toys to play with, they 
would build some amazing structures out of them.
    The adaptation that the force made in the course of Iraq 
and Afghanistan was quite remarkable. Again, if we could just--
I think it has mostly been a problem of the government and the 
Nation as a whole that we are not giving the people the tools 
of innovation, not a question of talent but of capability and 
capacity.
    Senator Blumenthal. Speaking of new technology, I am 
assuming that all of you on the panel believe that we need to 
move ahead with the Columbia-class submarine, which is going to 
be critical to our nuclear deterrent program as a matter of 
stealth and survivability and strength, and also the F-35, the 
next generation of fighter aircraft.
    My time is about to expire. So if any of you disagree, I 
hope that you will submit responses in writing. But there is 
continuing controversy about at least the F-35. All of us agree 
we have to drive down the cost but still proceed with that 
aircraft. If any of you have thoughts specifically about either 
of those two programs, I would very much welcome them in 
writing rather than go over my time now.
    Thank you, Mr. Chairman.
    Senator Reed. Thank you very much.
    Gentlemen, thank you for your excellent testimony and not 
only that, for really a lifetime of contribution to a very 
serious and provocative intellectual debate about our national 
defense policy which aids us immensely and ultimately aids the 
troops in the field, which we are all committed to do. So thank 
you very much.
    On behalf of Chairman McCain, let me call the hearing 
adjourned. Thank you.
    [Whereupon, at 11:13 a.m., the Committee adjourned.]

                           [all]
</pre></body></html>
